<html>
<title> - [H.A.S.C. No. 111-166]DEVELOPMENTS IN AFGHANISTAN</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]





                         [H.A.S.C. No. 111-166]

                      DEVELOPMENTS IN AFGHANISTAN

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             JUNE 16, 2010



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>





                                  ______

                      U.S. GOVERNMENT PRINTING OFFICE
  61-824 PDF               WASHINGTON : 2010
___________________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer 
Contact Center, U.S. Government Printing Office. Phone 202-512-1800, or 
866-512-1800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5f382f301f3c2a2c2b373a332f713c303271">[email&#160;protected]</a>  






                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                     One Hundred Eleventh Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          HOWARD P. ``BUCK'' McKEON, 
SOLOMON P. ORTIZ, Texas                  California
GENE TAYLOR, Mississippi             ROSCOE G. BARTLETT, Maryland
SILVESTRE REYES, Texas               MAC THORNBERRY, Texas
VIC SNYDER, Arkansas                 WALTER B. JONES, North Carolina
ADAM SMITH, Washington               W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          J. RANDY FORBES, Virginia
MIKE McINTYRE, North Carolina        JEFF MILLER, Florida
ROBERT A. BRADY, Pennsylvania        JOE WILSON, South Carolina
ROBERT ANDREWS, New Jersey           FRANK A. LoBIONDO, New Jersey
SUSAN A. DAVIS, California           ROB BISHOP, Utah
JAMES R. LANGEVIN, Rhode Island      MICHAEL TURNER, Ohio
RICK LARSEN, Washington              JOHN KLINE, Minnesota
JIM COOPER, Tennessee                MIKE ROGERS, Alabama
JIM MARSHALL, Georgia                TRENT FRANKS, Arizona
MADELEINE Z. BORDALLO, Guam          CATHY McMORRIS RODGERS, Washington
BRAD ELLSWORTH, Indiana              K. MICHAEL CONAWAY, Texas
CAROL SHEA-PORTER, New Hampshire     DOUG LAMBORN, Colorado
JOE COURTNEY, Connecticut            ROB WITTMAN, Virginia
DAVID LOEBSACK, Iowa                 MARY FALLIN, Oklahoma
JOE SESTAK, Pennsylvania             DUNCAN HUNTER, California
GABRIELLE GIFFORDS, Arizona          JOHN C. FLEMING, Louisiana
NIKI TSONGAS, Massachusetts          MIKE COFFMAN, Colorado
GLENN NYE, Virginia                  THOMAS J. ROONEY, Florida
CHELLIE PINGREE, Maine               TODD RUSSELL PLATTS, Pennsylvania
LARRY KISSELL, North Carolina        CHARLES K. DJOU, Hawaii
MARTIN HEINRICH, New Mexico
FRANK M. KRATOVIL, Jr., Maryland
BOBBY BRIGHT, Alabama
SCOTT MURPHY, New York
WILLIAM L. OWENS, New York
JOHN GARAMENDI, California
MARK S. CRITZ, Pennsylvania
LEONARD L. BOSWELL, Iowa
DAN BOREN, Oklahoma
HANK JOHNSON, Georgia
                     Paul Arcangeli, Staff Director
                 Mike Casey, Professional Staff Member
              Aileen Alexander, Professional Staff Member
                     Megan Howard, Staff Assistant












                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2010

                                                                   Page

Hearing:

Wednesday, June 16, 2010, Developments in Afghanistan............     1

Appendix:

Wednesday, June 16, 2010.........................................    61
                              ----------                              

                        WEDNESDAY, JUNE 16, 2010
                      DEVELOPMENTS IN AFGHANISTAN
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Ranking Member, Committee on Armed Services........     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Flournoy, Hon. Michele P., Under Secretary of Defense for Policy, 
  U.S. Department of Defense.....................................     5
Petraeus, Gen. David H., USA, Commander, U.S. Central Command....     8

                                APPENDIX

Prepared Statements:

    Flournoy, Hon. Michele P.....................................    70
    McKeon, Hon. Howard P. ``Buck''..............................    67
    Petraeus, Gen. David H.......................................    78
    Skelton, Hon. Ike............................................    65

Documents Submitted for the Record:

    Opening Statement by Gen. David H. Petraeus to the Senate 
      Armed Services Committee, 16 June 2010.....................    87

Witness Responses to Questions Asked During the Hearing:

    [The information was not available at the time of printing.]

Questions Submitted by Members Post Hearing:

    Mr. Critz....................................................    94
    Mr. Heinrich.................................................    93
    Mr. Kissell..................................................    92
    Mr. Loebsack.................................................    91
    Mr. Owens....................................................    94
    Mr. Rogers...................................................    92
 
                      DEVELOPMENTS IN AFGHANISTAN

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, June 16, 2010.
    The committee met, pursuant to call, at 1:03 p.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Good afternoon.
    Today, the House Armed Services Committee meets to receive 
testimony on developments in Afghanistan. Our witnesses today 
are two old friends, the Honorable Michele Flournoy, the Under 
Secretary of Defense for Policy, and General David Petraeus, 
Commander of the United States Central Command.
    And we welcome you both, and we thank you for being with 
us.
    First, let me take the opportunity to thank the many brave 
men and women serving under General Petraeus in Afghanistan, 
Iraq, throughout Central Command, for their outstanding 
service.
    I know I speak on behalf of all the members, General, when 
I convey to you our heartfelt thanks to those soldiers, 
sailors, airmen, and Marines for all that they do. And we are 
truly blessed to have such heroes working on behalf of our 
Nation under your command.
    The recent weeks' reports from Afghanistan have been 
largely negative. We heard that operations in Marjah are not 
going as expected and the Taliban has begun a campaign of 
murder and intimidation, the Kandahar operation has been 
postponed while the Taliban have been assassinating local 
government officials.
    U.S. and coalition casualties are increasing, and in some 
cases, the United States has been contracting with the very 
warlords who intimidate the people of Afghanistan and undermine 
our efforts.
    To some, these reports reflect what they have always 
suspected, that our efforts in Afghanistan are futile. I do not 
share that view.
    Last fall, I advocated for a counterinsurgency campaign as 
the course most likely to prevent al Qa'ida from re-
establishing a safe haven in Afghanistan. And I still believe 
this to be true. While we face many challenges in that country, 
the type of challenge we face now were largely expected. As we 
surge troops, there will be hard fighting and many setbacks, 
and I believe that this is the dark before the dawn.
    Let me be clear: We face serious challenges in Afghanistan. 
But after many years of neglect in Afghanistan, there are 
positive signs, as well.
    General McChrystal has reported that security is no longer 
declining. Local populations are increasingly pointing out 
improvised explosive devices. And while we desperately need 
more trainers from NATO [North Atlantic Treaty Organization], 
the recruiting of new personnel for the Afghan security forces 
is ahead of schedule.
    Increased cooperation with key nations in the region during 
the past year has also shown signs of success. Our Pakistani 
allies have arrested senior members of the Taliban leadership, 
while Afghan government and our forces have had great success 
targeting the local shadow governors.
    Further, we must remember that not all of our forces are 
deployed yet, which must happen before we rush to judgment. I 
do not doubt that we can face down the insurgency on the field 
of battle.
    While our troops are tired from many deployments--and they 
are--those same combat tours have made them into the best 
counterinsurgency force in history. What concerns me is the 
capacity of the Afghan government to sustain the military 
success provided by U.S. and Afghan troops. Ultimately, it is 
this ability that will convince the Afghan people to stand 
against al Qa'ida and against the Taliban.
    In recent weeks, we have seen mixed signals about this 
capacity. President Karzai forced out two of his most competent 
and highly regarded ministers. Media stories repeatedly bring 
home examples of corruption undermining our efforts.
    And yet at the same time, the Afghan government has forced 
out and prosecuted a number of government officials for 
corruption, including the former border police chief for 
Kandahar. Further, data suggests that the Afghan people are 
showing increased confidence in their local governments and an 
increased confidence that their national government is headed 
in the right and correct direction.
    While small and not irreversible, these significant signs 
give us some hope of progress.
    This December, the President has promised to review the 
progress of his strategy in Afghanistan. I hope our witnesses 
can help us understand what this review will entail and set 
some expectations for us.
    December is a reasonable time to review progress. All the 
surge troops will have arrived on the ground and been 
undertaking operations for several months.
    But I hope our witnesses can help the members here 
understand more about what we expect to see before December, 
particularly in Kandahar, which is so critical in the 
forthcoming months. What progress do they expect to see among 
the Afghan security forces and the Afghan government? We all 
know Afghanistan will not become peaceful and successful 
overnight, but what signs are reasonable to expect and would 
represent enough progress to suggest we should continue our 
present course?
    And I hope our witnesses today can help us with these 
questions. We, again, thank both of you for being with us 
today. We appreciate your service and your testimony, as well.
    [The prepared statement of Mr. Skelton can be found in the 
Appendix on page 65.]
    I turn to my good friend, the ranking member, gentleman 
from California, Buck McKeon.
    Mr. McKeon.

 STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A REPRESENTATIVE 
  FROM CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. McKeon. Thank you, Mr. Chairman. And thank you for 
holding today's hearing on Afghanistan.
    I think this hearing is especially timely, and I agree 
wholeheartedly with all of your comments about the troops that 
General Petraeus commands. And I send my best to them and to 
their families.
    While the Senate passed its version of the wartime 
supplemental measure prior to Memorial Day, consistent with the 
Department's request, the House has yet to mark up this 
legislation in committee, let alone bring the matter forward to 
a vote for the full House.
    I hope today that we will hear from you regarding the 
urgency of this funding and the consequences of delay when it 
comes to our military operations, particularly those in 
Afghanistan.
    I would like to welcome back Under Secretary of Defense 
Michele Flournoy and the Commander of Central Command, General 
Petraeus. Neither of you are new to this committee, nor to the 
ongoing discussion about Afghanistan. I want to take a moment 
to thank each of you for your service to our Nation and for 
being here with us this afternoon. I look forward to a candid 
discussion.
    Over the last several months, I have been vocal in 
expressing my support for the President's strategy and his 
decision to send an additional 30,000 U.S. forces to 
Afghanistan. Many of us believe, Republicans and Democrats 
alike, that failure in Afghanistan is not an option. The stakes 
are too high.
    If we do not succeed in our mission by working alongside 
our Afghan and international partners, the result will be the 
re-establishment of a pre-9/11 sanctuary for al Qa'ida 
terrorists and the Taliban extremists. This is not an end state 
that any of us should be willing to accept.
    I look forward to our witnesses providing their assessment 
of where security and stability in Afghanistan and the region 
stands today.
    Now, turning to my concerns. As you both know, I have been 
just as outspoken in sharing my apprehensions with what I have 
called a minimalist approach advocated by some in Washington 
when it comes to resourcing our efforts. General Petraeus, at 
CENTCOM's [U.S. Central Command] posture hearing in March, I 
shared with you my concern that we were not applying lessons 
learned in Iraq to address the indirect fire threat to U.S. and 
coalition forward operating bases in Afghanistan.
    Under Secretary Flournoy, at our Afghanistan hearing in 
May, you heard similar concerns, as well as my fear that a real 
or perceived troop limit was forcing tradeoff decisions between 
combat troops and key enablers.
    I would like to thank our chairman and my colleagues on 
both sides of the aisle for taking a strong stand on this issue 
in the House-passed version of the defense bill. We will work 
with the Senate and the Department of Defense to ensure that 
the United States devotes all necessary resources for success 
in Afghanistan and that U.S. force levels are not limited in an 
arbitrary manner that would hamper the deployment of critical 
combat enablers, including force protection.
    Over the course of the last six months, I have spoken out 
against the President's announced July 2011 date to begin 
withdrawing U.S. forces. In my view--and I am not alone--this 
decision was based on the Washington political clock, not the 
Afghan operational clock.
    While some will argue that the scope and the pace of that 
withdrawal remains undecided, I believe that setting a date 
certain risks undermining the very counterinsurgency mission 
which is based on winning the support of the Afghan population 
that our troops and their civilian counterparts are executing.
    July 2011 is not the only date that has warranted my 
attention. As you both know, we are quickly approaching the 
pending December 2010 strategic review. Nearly six months ago, 
I questioned the timing of the review, given that it would 
occur within three months of all the surge forces arriving in 
theater.
    I was also skeptical whether by December 2010 we would be 
in a position to fairly evaluate whether or not we should begin 
a transition by the summer of 2011. I support assessments. They 
are absolutely necessary to measure progress or the lack 
thereof.
    And I am confident that General Petraeus, General 
McChrystal, and the entire chain of command are constantly 
assessing our military operations and progress in Afghanistan, 
Iraq, and elsewhere around the world. Additionally, I am 
confident that Ambassador Eikenberry is doing the same on the 
civilian side.
    My concern, then, which has been strengthened recently, is 
that events on the ground usually evolve in such ways that they 
don't align perfectly to political deadlines put in play in 
Washington. Based on recent press reports, it appears there is 
an effort to manage expectations for that review and what it 
means in terms of assessing our progress in Afghanistan.
    I think the process and nature of the review deserve some 
discussion this morning. I continue to doubt that we will be 
able to fairly assess this, this December, just 90 days after 
all the surge forces arrive in theater, if General McChrystal 
and our troops are going to succeed in Afghanistan or be in a 
position to determine whether we are on track to begin 
redeploying U.S. forces by July 2011.
    While the additional 30,000 U.S. forces are arriving in the 
south, we recently learned that our operations are taking 
longer than originally expected. How will the upcoming December 
assessment be used by the President and this Administration to 
determine the pace and scope of our redeployment?
    Last week, General McChrystal acknowledged that our 
military is using lessons learned from its efforts in the 
Helmand River Valley, called ongoing operations a ``deliberate 
process,'' and recognizing that it takes time to convince 
people.
    When asked about upcoming operations in Kandahar, General 
McChrystal stated, ``It will happen more slowly than we 
originally anticipated. I think it will take a number of months 
for this to play out, but I don't think that is necessarily a 
bad thing. I think it is more important that we get it right 
than we get it fast.''
    I absolutely agree with General McChrystal. It is more 
important that we get this done right. The President's 
determination on how and when we move forward should be based 
on events on the ground, not imposed timelines that are often 
artificial and can be counterproductive.
    Do the assumptions underlying the President's December 2009 
decision to begin redeployment in July 2011 still hold true 
today, more than six months later? Did the Administration 
underestimate the time it would take to get the surge forces 
into the fight? Did we also underestimate how long it would 
take to set the conditions to begin and complete the operations 
in Kandahar?
    Do timelines reinforce our long-term commitment to the 
Afghan government and its people, as well as Pakistan and our 
international partners? Or do they alter behavior in such a way 
that makes our strategy more difficult to achieve?
    Once again, thank you for being here this morning, and I 
look forward to your testimonies and having my concerns and 
questions addressed. Thank you.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 67.]
    The Chairman. I thank the gentleman from California.
    And we, again, welcome you, Madam Secretary. You are on.

   STATEMENT OF HON. MICHELE P. FLOURNOY, UNDER SECRETARY OF 
         DEFENSE FOR POLICY, U.S. DEPARTMENT OF DEFENSE

    Secretary Flournoy. Thank you, Mr. Chairman, Ranking Member 
McKeon, and members of the committee. Thank you for inviting us 
here to testify today.
    I would like to give you an update on our recent progress 
and remaining challenges in Afghanistan. As you know, President 
Obama announced a number of key refinements to our Afghanistan 
strategy last December, including the deployment of 30,000 
additional troops. Today, over 19,000 of these additional 
troops have deployed, and most of the remainder will be in 
place by the end of the summer.
    Our own troops will be joined by over 9,000 international 
troops. Approximately 60 percent of the NATO and partner troops 
are currently in place in Afghanistan, and more will arrive in 
the coming months.
    Currently, the main operational effort for ISAF 
[International Security Assistance Force] and our Afghan 
partners continues to be in the central Helmand River Valley 
and in Kandahar. Our focus in these operations is protecting 
the population and fostering Afghan security and governance 
capacity.
    So far, we believe that we have been making gradual, but 
important progress. The coalition is contesting the insurgency 
more effectively, in more places, and with more forces. But 
this insurgency is both resilient and resourceful.
    In both April and May, we have seen insurgent activity 
resume in Marjah and in much of central Helmand. However, local 
Afghans in the region have also shown an increased willingness 
to report suspected IEDs [improvised explosive devices] and 
insurgent weapons caches, which suggests growing pockets of 
confidence among ordinary people and a willingness to support 
ISAF and Afghan efforts to establish much needed security and 
governance.
    In Kandahar province, we are, indeed, taking a deliberate 
approach, gradually expanding our efforts to improve local 
governance in key districts and as the coalition and ANSF 
[Afghanistan National Security Force]--as those operations 
improve the security situation.
    Some in Congress have expressed concern about the impact of 
local power brokers on our efforts in Kandahar, and we share 
this concern. We also recognize that there are ways in which 
our own contracting practices have had unintended consequences, 
concentrating wealth among a relatively small number of Afghans 
who control companies large enough to procure contracts.
    General Petraeus and Admiral Mullen have recently created a 
two-star task force to examine our contracting practices, with 
a view to reducing these unintended consequences. When we have 
evidence of corruption, we will also work with our Afghan 
partners to prosecute those who have violated the law.
    Let me turn to our efforts to increase the strength and 
capability of the ANSF. Building effective Afghan National 
Security Force capacity remains key, both to the long-term 
security and stability of Afghanistan and to our ability to 
transition security responsibility and eventually draw down our 
own forces as conditions allow. While we are still short about 
450 institutional trainers, we have brought the instructor-
trainee ratio from about 1 to 80 down to 1 to 30.
    The ANA [Afghan National Army] is on schedule to meet the 
goal of 134,000 troops for fiscal year 2010, and nearly 85 
percent of the ANA is now fully partnered with ISAF forces as 
they operate in the field.
    As far as the police, the ANP [Afghan National Police] is 
on track to reach its goal of 109,000 police by the end of the 
fiscal year. We have increased the capacity to conduct ANP 
training by 400 percent over the last 12 months, and follow-on 
training has been provided for Afghan uniformed police in 83 
key districts, as well as to the Afghan border police.
    Recent salary and benefit initiatives have addressed pay 
disparities between the ANA and the ANP, and these initiatives 
appear to be improving retention and reducing attrition.
    Literacy programs have also proven to be a positive 
incentive. Further, we believe that rising end-strength numbers 
and newly instituted unit rotation schedules will further 
reduce attrition. Consequently, we believe that ANSF end-
strength goals for 2011 are achievable.
    Needless to say, the purpose of these efforts is to ensure 
a gradual transition of security responsibility to the Afghan 
government. And as we told President Karzai and 14 members of 
his cabinet during our strategic dialogue last month, 
transition does not--does not--mean abandonment or withdrawal. 
We are committed to supporting the Afghan people over the long 
haul, and we will not walk away from this commitment.
    Nonetheless, we cannot and should not remain in a combat 
role indefinitely. As the international military presence 
begins to shift from a lead combat role to an advise and assist 
role, it will be absolutely vital to ensure a robust and long-
term security assistance program, as well as an international 
civilian assistance effort focused on capacity-building, 
governance, and development.
    We are working closely with the Afghan government to plan 
for this transition process. At the Kabul conference in July, 
the Afghan government will present plans for achieving further 
progress in governance and development across four ministerial 
clusters. We will also expect to hear from President Karzai 
regarding actions to be taken with regard to corruption, as 
well as plans for reconciliation and reintegration.
    Let me say a few words about the latter, since I know it is 
an issue that has generated a lot of interest. All parties to 
the conflict in Afghanistan recognize that, in the end, some 
political resolution will be required to bring the conflict to 
a close. This recognition has driven the Afghan government to 
begin to develop plans to reconcile insurgent leaders and 
reintegrate low-level fighters.
    In early April, President Karzai presented his interim 
plans for reintegration. And in May, a consultative peace jirga 
gave President Karzai a conditional mandate to pursue 
reconciliation.
    The U.S. supports an Afghan-led process that seeks to bring 
back into society those who cease violence, break ties to al 
Qa'ida, and are willing to live under the Afghan constitution.
    Let me conclude by underscoring our overall assessment that 
we are heading in the right direction in Afghanistan. Of the 
121 key terrain districts identified by COMISAF [Commander of 
International Security Assistance Force] in December 2009, 60 
were judged as sympathetic or neutral to the Afghan government 
at the time. By March of this year, that number had climbed to 
73.
    This and other indicators suggest that we are beginning to 
regain the initiative and the insurgency is beginning to lose 
momentum. That said, the outcome is far from determined, and 
these are still early days for the Administration's new 
strategy.
    When I testified before this committee six weeks ago, I 
said at the time, inevitably, we will face challenges, possibly 
setbacks. Even as we achieve successes, we need to recognize 
that things may get harder before they get better. And I stand 
by that assessment.
    None of what we are doing in Afghanistan involves quick 
fixes. These are long-term problems, and their solutions will 
require patience, persistence, and flexibility, but we are 
making progress, sometimes slow, but we believe steady, and we 
are confident that General McChrystal will be able to show 
further progress by the end of this year.
    We greatly appreciate this committee's steadfast support 
for our efforts, from OEF [Operation Enduring Freedom] budget 
requests to our supplemental request. And as was stated, this 
is indeed an urgent matter, and we look forward to rapid 
passage of that bill.
    In particular, we appreciate your support for full funding 
of the Afghan National Security Forces Fund, for the extension 
of coalition support funds to reimburse key coalition partners, 
and for your support for the Commander's Emergency Response 
Program [CERP]. The CERP is a critical tool in this 
counterinsurgency fight, and we hope that you will support the 
full request that the Department has made.
    Thank you again for inviting us here today. Appreciate your 
support. And we look forward to your questions and comments. 
Thank you.
    [The prepared statement of Secretary Flournoy can be found 
in the Appendix on page 70.]
    The Chairman. I certainly thank you.
    General Petraeus, we, again, welcome you, and we appreciate 
your testimony.

   STATEMENT OF GEN. DAVID H. PETRAEUS, USA, COMMANDER, U.S. 
                        CENTRAL COMMAND

    General Petraeus. Mr. Chairman, Congressman McKeon, members 
of the committee, thank you for the opportunity to provide an 
update on the situation in Afghanistan and our execution of the 
comprehensive civil-military counterinsurgency campaign that is 
being conducted there.
    I might note that it is a pleasure to do this with Under 
Secretary Michele Flournoy, who I might note was a contributor 
to the conference at Fort Leavenworth in January 2006 that 
launched the effort to draft the Army and Marine Corps 
counterinsurgency manual.
    I will begin with some brief context. As you will recall, 
soon after the 9/11 attacks, an international coalition led by 
the United States conducted an impressive campaign to defeat 
the Taliban, al Qa'ida, and other associated extremist groups 
in Afghanistan.
    In the years that followed, however, members of the Taliban 
and other extremist elements gradually reconnected in the 
Afghanistan-Pakistan border regions and rebuilt the structures 
necessary to plan and execute insurgent operations.
    In recent years, these groups have engaged in an 
increasingly violent campaign against the Afghan people, their 
government, and ISAF forces, and they have demonstrated 
symbiotic relationships, ambitions, and capabilities that pose 
threats not just to Afghanistan and the region, but to 
countries throughout the world.
    In response to the threat posed by these extremists, ISAF 
forces and our Afghan partners are engaged in a campaign 
intended, above all, to prevent re-establishment of 
transnational extremist sanctuaries in Afghanistan, like the 
ones al Qa'ida enjoyed there when the Taliban ruled Afghanistan 
prior to 9/11.
    To achieve our objectives, we are working with our ISAF and 
Afghan partners to wrest the initiative from the Taliban and 
other insurgent elements, to improve security for the Afghan 
people, to increase the quantity and quality of the Afghan 
National Security Forces, and to support establishment of 
Afghan governance that is seen as legitimate in the eyes of the 
people.
    Over the past 18 months, we and our ISAF partners have 
worked hard to get the ``inputs'' right in Afghanistan. We have 
worked to build the organizations we learned in Iraq are needed 
to carry out a comprehensive civil-military counterinsurgency 
campaign.
    We have put the best military and civilian leaders possible 
in charge of those organizations. We have refined and, where 
necessary, developed the plans and concepts needed to guide the 
conduct of a comprehensive effort. And we have deployed the 
substantial additional resources--military, civilian, funding, 
and so on--needed to implement the plans that have been 
developed.
    And I note here that the deployment of the final 30,000 
additional U.S. troopers announced by President Obama last 
December and their equipment is slightly ahead of schedule. 
Nearly 21,000 of the additional 30,000 are now in Afghanistan. 
And by the end of August, as we committed, all the additional 
U.S. forces will be on the ground, except for a headquarters 
unit that is not required until a month or so later.
    Meanwhile, the efforts to increase the size and capability 
of the Afghan National Army and police are also now on track, 
though there clearly is considerable work to be done in that 
critical area and to sustain the improvements that have been 
achieved in recent months.
    Even as we continue the effort to complete getting the 
inputs right, the actions taken over the last 18 months, which 
include tripling the U.S. force contribution and increasing 
similarly the U.S. civilian component, have enabled the 
initiation of new efforts in key areas in Afghanistan.
    As the Under Secretary noted, the initial main effort has 
been in the central Helmand River Valley, and U.S. and U.K. 
forces have made progress there, though, predictably, the enemy 
has fought back as we have taken away his sanctuaries in 
Marjah, Nadi-Ali, and elsewhere.
    And I might note that I walked the market in Marjah a 
couple of months ago, something that would not have been 
possible when I appeared before this committee for my posture 
hearing several months back.
    The focus is now shifting to Kandahar province, where the 
effort features an integrated civil-military approach to 
security, governance, and development. In the months ahead 
there, we will see an additional U.S. brigade, from the great 
101st Airborne Division, deploy into the districts around 
Kandahar City, together with an additional Afghan army brigade, 
with which they will partner.
    There will also be the introduction of additional Afghan 
police, both uniform and national civil order police, and U.S. 
military police, to secure the city, along with other U.S. 
forces and civilians who will work together with the impressive 
Canadian provincial reconstruction team that has been deployed 
in the city for several years.
    As you have heard General McChrystal explain, the concept 
is to provide the Kandaharis a rising tide of security, one 
that will expand over time and establish the foundation of 
improved security on which local Afghan governance can be built 
and that will enable improvements in the provision of basic 
services and other areas, as well.
    There will, as the Under Secretary noted, be nothing easy 
about any of this. Indeed, I noted several months ago during my 
annual posture hearing that the going was likely to get harder 
before it got easier. That has already been the case, as we 
have seen recently.
    But it is essential that we make progress in the critical 
southern part of the country, the part where, in fact, the 9/11 
attacks were planned by al Qa'ida during the period when the 
Taliban controlled it and much of the rest of the country.
    Central to achieving progress in Afghanistan--and to 
setting the conditions necessary to transition security tasks 
from the international coalition to the Afghan government--is 
increasing the size and capacity of the Afghan National 
Security Forces.
    To that end, with the assistance of the Afghan Security 
Forces Fund, Afghan security forces are now on track to meet 
their targeted end-strength objectives by the end of this year, 
based on improvements that have been made in recruiting and in 
reducing attrition.
    In January 2009, the ANSF numbered 156,000; today, there 
are over 231,000 Afghan National Security Force members. And to 
help achieve greater quality as well as greater quantity, 
General McChrystal has directed much greater partnering with 
the ANSF, an emphasis that is now on display daily in 
operations throughout Afghanistan.
    Considerable progress has been made in getting the concepts 
right for developing the ANSF and also in developing the 
structures needed to implement those concepts. Improving the 
ANSF has been facilitated considerably, for example, by the 
establishment last November of the NATO Training Mission-
Afghanistan, the organization created to help the ANSF expand 
and professionalize.
    It is worth noting that the NTM-A [NATO Training Mission-
Afghanistan] Commander for the last six months, Lieutenant 
General Bill Caldwell, assessed that in NTM-A's initial period, 
NATO and Afghan security leadership have made progress in 
reversing adverse trends in the growth and professionalization 
of the ANSF.
    Nevertheless, as General Caldwell has also observed, there 
is much work remaining to reduce attrition further and to 
develop effective leaders through considerably augmented 
partnering, training, education, and recruiting, and 
initiatives are being pursued in each of those areas.
    In all of our efforts, we and President Karzai continue to 
emphasize the importance of inclusivity and transparency on the 
part of the Afghan government and its leadership, especially in 
linking nascent local governing structures to the decision-
making and financial resources in Kabul.
    Needless to say, innumerable challenges exist in all areas 
of governance, and much more needs to be done to help the 
Afghan government assume full responsibility for addressing the 
concerns and needs of its citizens.
    The National Consultative Peace Jirga held in Kabul earlier 
this month was a constructive step in this effort, providing an 
opportunity for President Karzai to build consensus, to address 
some of the political tensions that fuel the insurgency, and to 
promote reconciliation and local reintegration as means that 
can contribute to political resolution of some of the issues 
that exist.
    The shura council that President Karzai conducted on Sunday 
in Kandahar furthered this process and the effort to set the 
political conditions for progress in Kandahar.
    Another critically important part of our joint civil-
military campaign in Afghanistan is promoting broad-based 
economic and infrastructure development. We have seen that 
improvements in the Afghan government's ability to deliver 
basic services, such as electricity, education, and basic 
health care, have positive effects in other areas, including 
security and broader economic development.
    We have worked closely with the international community and 
the Afghan government to support robust strategies for water, 
energy, education, health, and road programs. And we are now 
embarking on a project jointly developed by the government of 
Afghanistan and various U.S. government agencies to 
dramatically increase production of electricity in the Kandahar 
area and parts of southern and eastern Afghanistan.
    To complement this effort, we also promote agricultural and 
economic programs to help Afghans bring licit products to 
market, rather than continuing to grow the poppy.
    Again, none of this is easy or without considerable 
challenges. However, the mission is, as the members of this 
committee have noted, hugely important to the security of our 
region--of the region and our country. In view of that, we are 
obviously doing all that we can to achieve progress toward 
accomplishment of our important objectives in Afghanistan.
    And in closing, I want to thank the members of this 
committee once again for their unwavering support and abiding 
concern for the more than 215,000 soldiers, sailors, airmen, 
Marines, and coast guardsmen deployed throughout the CENTCOM 
AOR [area of responsibility], and for their families, as well.
    Thank you very much.
    [The prepared statement of General Petraeus can be found in 
the Appendix on page 78.]
    The Chairman. General, thank you very much.
    General, would you agree with me that our combat troops 
today are the best counterinsurgency force in history?
    General Petraeus. I would, Mr. Chairman. They are superb. 
And, in fact, I think they deserve the title that Tom Brokaw, 
among others, has given to them, as well, as the new greatest 
generation of Americans.
    The Chairman. It is really interesting to note, in visiting 
with them wherever one visits with them, either at a post like 
Fort Leonard Wood in Missouri or in Afghanistan, the positive 
attitude of the young troops toward their mission, whether they 
be active duty or they be National Guard. And in signing up, 
they know full well that they are going to be deployed.
    To what do you attribute the positive state of our military 
today, that those of us on this committee encounter when we 
visit with them?
    General Petraeus. I think there are several factors, Mr. 
Chairman. And, in fact, you may recall--I have talked to you 
about the re-enlistment ceremony one time of 1,215 soldiers, 
sailors, airmen and Marines at the headquarters of Multi-
National Force-Iraq in the Fourth of July 2008, and actually 
asking myself that question. Why are these individuals all 
raising their right hands in a combat zone, knowing that by 
doing that they will likely return to a combat zone for at 
least one more tour in their next enlistment?
    And I think there are several factors. I think there is 
certainly a sense that they are serving a cause larger than 
self, performing a mission of enormous importance to our 
country. They believe they are doing it with other like-minded 
individuals. And as you know, when the going gets tough, what 
keeps them going most of all is that fierce desire not to let 
down their buddy on their right and left.
    And then I think another hugely important factor is the 
sense of support of our fellow citizens. Occasionally people 
say, jeez, the rest of America doesn't know what is going on, 
in terms of those who are in uniform. I don't think that is the 
case. I think that there has been an outpouring of support for 
our men and women in uniform and for their families, and there 
is nothing that means more particularly to those who are 
serving in harm's way than a sense that those back home 
appreciate the sacrifices that they and their families are 
making.
    The Chairman. Let's look at the Afghanistan police, if we 
may. Over a year ago, when in Afghanistan, we got a pretty 
negative report on their progress. Tell us what progress, if 
any, they have made within the last year and where--what is the 
status of them today?
    General Petraeus. Well, there has been progress, I think, 
first of all, that was very important in terms of inputs, in 
terms of ensuring that the model is right for the Afghan 
police, because in one important respect, it was not. The model 
used to be that an Afghan policeman was recruited and then 
assigned immediately and then trained when they got to it, and 
that obviously is not a model for success, if you are facing a 
difficult insurgency.
    So General Caldwell has changed that, and it is now 
recruit, train, and assign. And moreover, there is help for 
recruiting, because for the first time, the Ministry of 
Interior has a recruiting command that goes out, and that will 
also help to try to achieve a more broad representation of all 
of the different ethnic and sectarian groupings in Afghanistan. 
In particular, the Pashtun are generally underrepresented in 
the ANSF compared to some of the others, though there is 
certainly representation of that.
    Moreover, the ratio of trainers--just broadly speaking--in 
the Afghan forces has been reduced from 1 trainer for every 80 
trainees to 1 trainer for every 29 or 30 trainees, 
notwithstanding the continued shortage of some 450 trainers 
overall, and then hundreds more that are pledged by coalition 
governments--have yet not arrived, but improvements in all of 
those different areas.
    On the ground, I think it is important to note that Afghan 
forces are in the lead, in Kabul, for example, far and away 
Afghanistan's largest and most significant city, and, by and 
large, are doing competent work there. They are also in the 
lead in a variety of other areas and in mission sets, such as 
escorting convoys and so forth.
    But having said all that, with respect to the police, there 
are two considerable concerns that still are being confronted. 
The first is that, in an insurgent area that is difficult 
because of the insurgent activity, the local police are the 
first to be the most vulnerable, intimidated, assassinated, or 
have their families threatened.
    Moreover, one of the solutions to the local police 
challenge or the uniform police challenge, which has been the 
use of the ANCOP, the Afghan National Civil Order Police, which 
are units and have the resiliency that comes from that, the 
challenge there has been that they have been used so hard and 
so frequently and at a pace that their attrition rate has been 
unsustainable.
    So where there has been reduction overall in the police and 
army attrition below the level for the last three months that 
is necessary to sustain meeting the end-strength goals at the 
end of this year, there are still components within those 
forces that have an attrition rate that is too high, and the 
ANCOP are among them.
    The Chairman. General, from time to time, I will receive 
comments to the effect that, well, the British couldn't do it 
in Afghanistan, and the Russians couldn't do it in Afghanistan, 
what makes you think we can do it in Afghanistan, trying to 
point out the difference? But could you answer that question 
that I often get?
    General Petraeus. I could. First of all, I think, as you 
know, as a fellow history lover, the fact is the British did 
succeed in Afghanistan for sustained periods of time, and then 
they would be defeated again, but they had quite significant 
periods during which they prevailed.
    Now, they did it through a variety of different mechanisms 
and deals, as did Alexander the Great, who you will recall, at 
least, the history records had to take an Afghan wife to 
solidify the links there, and we are hoping that that won't be 
necessary for General McChrystal or myself. [Laughter.]
    But it is accurate----
    The Chairman. Will you invite us to the wedding?
    General Petraeus. We have to hold a shura council first. It 
is accurate that, again, Afghanistan regarded as the graveyard 
of empires, and it--in that regard, I think it is very 
important to draw a distinction between the character of the 
Soviet occupation of Afghanistan and the character of certainly 
what we are trying to do in Afghanistan.
    The Soviet occupation was quite brutal. They employed very, 
very harsh tactics, leveled half of an entire city in the west, 
sowed the fields with toys that blew up when the kids picked 
them up; very, very harsh tactics, techniques, and procedures, 
and ultimately, of course, repelled the population rather than 
winning it to the side of the Afghan government that they were 
trying to establish.
    We have worked hard not to do that. In fact, as you know, 
among the directives developed first by General McKiernan and 
then refined by General McChrystal was one, as an example, to 
reduce to an absolute minimum the loss of innocent civilian 
life by the way that we employ these largest casualty-producing 
weapons, bombs, indirect fire, various forms of attack 
helicopter, close air support.
    The fact is, I want to assure the committee that we will 
drop a bomb anywhere at any time if our troopers' safety is in 
jeopardy. But what the directive is designed to do is to ensure 
that our troopers have the recognition that our normal impulse 
of closing with the enemy, of pressing the fight, can sometimes 
result in dropping a bomb on a house that you are not sure who 
is inside, as opposed to breaking contact and keeping it under 
observation and trying to track the bad guys who have been 
shooting at you, if the fact is that you are going to kill a 
bunch of innocent civilians inside that house.
    And that is the kind of awareness that is essential for 
counterinsurgents. And as you noted, our troopers are superb 
counterinsurgents at this point in time, and we believe that by 
working hard with those who train them in the states, prepare 
them for deployment, and then command them downrange, that, 
indeed, we can both reduce innocent civilian life and not 
jeopardize the safety of our soldiers. That is just one 
example, if I could.
    The Chairman. I thank the gentleman.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    General Petraeus, from your perspective, can you describe 
the nature of the review that will be undertaken by the 
Administration this December? And do you think it could lead to 
a strategic overhaul for our efforts in Afghanistan?
    General Petraeus. Well, first of all, Congressman, as you 
rightly noted, we do reviews all the time. We are constantly 
doing assessments. I think you get at least a quarterly review. 
We do monthly assessments. General McChrystal has some new, 
even now unclassified monthly assessments that are all very 
useful.
    I would not want to overplay the significance of this 
review, which as you rightly noted will only be three or four 
months since the full deployment of all of the surge forces and 
will be six or seven months prior to the point at which--July 
2011, which the President has described as the point at which a 
process begins, based on conditions on the ground, to 
transition some tasks to Afghan forces and officials and a 
process of the beginning--again, pace to be determined by 
conditions on the ground--of a responsible drawdown of the 
surge forces.
    Mr. McKeon. So we should probably not be overly emphasizing 
the December report that will be issued. Do you think that that 
will be used by the President and the Administration to 
determine the pace and scope for the redeployment of our U.S. 
forces?
    General Petraeus. I think that is probably too far out to 
be making those kinds of judgments, Congressman. I think that 
we will have to do that much closer to the point at which we 
have a sense of the real conditions.
    And, again, keep in mind that July 2011, in the first 
place, is based on projections made all the way back last fall 
during the decision-making process. And so, again, I think--we 
would not make too much out of that. So I think your 
characterization is correct, and I don't know if the Under 
Secretary wants to----
    Secretary Flournoy. I would confirm that that is my belief, 
as well, sir. The December review is simply the fact--we have a 
President who wants to keep abreast of what is going on. He has 
a monthly review as it is. December will be a bit of a deeper 
dive. How are we doing? Where do we need to adjust strategy, 
resources, et cetera, to achieve our objectives, given the 
vital interest at stake?
    I expect there will be further review before we get to the 
point of actually making decisions about the scope and pace of 
what happens after July 2011.
    Mr. McKeon. Right.
    General, is it your best professional judgment that the 
assumptions underlying the President's December 2009 decision 
to begin redeployment in July 2011 still hold true today more 
than six months later, and after we are seeing that operations 
in the south are taking longer than originally expected?
    General Petraeus. I think so, Congressman. Again, I will--I 
explained this to the Senate Armed Services Committee this 
morning--as we get closer, you can be assured that I will 
provide my best and most forthright professional military 
advice to the Secretary and to the President on the way ahead 
as we start to get greater clarity on July 2011.
    I know that that is what the President expects and wants. 
And I know that that is my obligation--sacred obligation to our 
troopers out there on the ground, as well.
    Mr. McKeon. I just want to reaffirm some of these same 
things, because all of us weren't at the Senate hearing. But 
Senator Levin asked you ``whether or not you continue to 
support the strategy of the President and continue to support 
that July 2011 date for the start of a reduction in U.S. forces 
from Afghanistan.''
    General Petraeus. Maybe--if I could, Congressman, if you 
can indulge me, I will just read what I gave, because I try to 
be very precise in this. And what I said this morning was that 
I did support and agree at the end of the President's decision-
making process last fall, with the July 2011 date described by 
the President as the point at which a process begins to 
transition security tasks to Afghan forces at a rate to be 
determined by conditions at that time.
    I also agreed with July 2011 as the date at which a 
responsible drawdown of the surge forces is scheduled to begin 
at a rate to be determined by conditions at the time.
    And I did believe there was value in sending a message of 
urgency, which is how I interpreted the July 2011, as announced 
at West Point, as well as the message of substantial 
commitment, the considerable additional forces that the 
President ordered, as well as additional civilians, 
authorization for extra ANSF, and additional NATO forces, as 
well.
    But it is important that July 2011 be seen for what it is, 
the date when a process begins, based on conditions, not the 
date when the U.S. heads for the exits.
    Moreover, my agreement with the President's decisions was 
based on projections of conditions in July 2011. Needless to 
say, we will do all that is humanly possible to achieve those 
conditions, and we appreciate the resources provided by 
Congress to enable us to do that.
    Of course, we will also conduct rigorous assessments as we 
get closer to next summer, as we do periodically in any event, 
to determine where adjustments in our strategy are needed.
    And as July 2011 approaches, I will provide my best 
professional military advice to the Secretary and the President 
on how I believe we should proceed based on the conditions at 
that time, and I then will support the President's ultimate 
decision.
    I do believe that providing one's forthright advice is a 
sacred obligation that military leaders have to our men and 
women in uniform. And, again, I know that that is what the 
President expects and wants his military leaders to provide, as 
well.
    Mr. McKeon. You also paused and said, ``In a perfect world, 
Mr. Chairman, we have to be very careful with timelines.'' And 
I think, as I just heard again, you said the July timeline is 
not when we head for the exit, but rather we begin a process.
    In Iraq, we have a timeline of August that all the 
warfighters will be out, and we will be down to 50,000, and 
then December of 2011, we will be totally out of Iraq. We do 
not have a final timeline, my understanding, as to when we will 
be out of Afghanistan in total.
    General Petraeus. That is correct, Congressman. If I could, 
I would just clarify one item there about the characterization 
of the forces.
    We will have combat forces in Iraq, but they will have been 
re-missioned, if you will, and also literally re-organized to 
perform in advise and assist mission. And so the real change 
beyond the reduction of our forces down to 50,000, which is 
still a considerable number and considerable capability, 
especially as it consists of almost all of the special 
operations forces of all types that we currently have on the 
ground still, but it will also be that a mission change takes 
place from a mission where we occasionally lead operations, 
although, frankly, we have--candidly, we have long since 
transitioned.
    But officially, we will go to an advise and assist mission. 
And the last of the units that deployed configured as brigade 
combat teams will have reconfigured into advise and assist 
brigades, so there is sort of a nuanced description there, I 
think, that is important.
    And I guess the Under Secretary is reaching for the 
microphone, too.
    Secretary Flournoy. I just wanted to clarify that you 
asked, sir, a very important question about the assumptions 
underlying the July 2011 beginning of a responsible drawdown 
process that is conditions-based. And there are two key 
assumptions. One is that there will be some provinces that are 
ready for transition to Afghan lead, with us presumably still 
in support in some ways as necessary, and that there will be 
ANSF units who are ready to take a lead combat--you know, the 
lead combat role, the lead security role, with international 
support.
    Those are the sort of two critical assumptions. And I think 
if you look at the--where we have come in the last year--and we 
recognize that there is still another year to go, with 
additional resources coming into play--I think those two 
assumptions, the expectation that those two assumptions will 
still hold, I think, is still there.
    Mr. McKeon. General, you stated that we are assuming we 
will have those kinds of conditions that will enable--by the 
time in July--enable that by the time in July 2011. That is the 
projection. And that is, again, what we have supported. And 
both of you mentioned that this is based on conditions, not 
just on a date on a calendar.
    General Petraeus. Correct.
    Mr. McKeon. General, what are the conditions you project 
will be in place by 2011 to begin a transition to the Afghan 
security forces? How are they different in the east versus the 
south, such as Helmand and Kandahar?
    General Petraeus. Well, the conditions will be in a variety 
of different areas: improvements in security, improvements in 
the Afghan National Security Forces contributing to that 
security, and improvements in governance. And those are the 
components--just very broadly speaking, without getting into 
too much of a deep dive--that we are obviously looking for in 
those districts and provinces that can be transitioned and from 
which we can begin to thin out our forces in a process similar 
to what we did in Iraq, noting that it is thinning out, not 
handing off, that is the technique that produces success in 
this kind of effort.
    Mr. McKeon. You say improvement in those three areas. But I 
imagine you have some baseline that you will expect them to be 
at, improved to at least a certain point. If those conditions 
don't exist by July 2011, will you make the recommendation that 
we delay the redeployment of the U.S. forces?
    General Petraeus. Well, as I have said, Congressman, I will 
provide my best professional military advice. And if that is 
what is necessary, that is what I will do.
    Mr. McKeon. And what would you tell members of the 
congressional body, in terms of being careful of timelines?
    General Petraeus. Well, I think that we have to be very 
clear with July 2011. I have tried very hard to explain this 
to--in fact, to President Karzai, to Afghan leaders, to 
Pakistani partners and leaders, other regional governmental 
leaders, and to our allies and to even audiences in the United 
States, that the message that President Obama was conveying at 
West Point was one of urgency, not that July 2011 is when we 
race for the exits, reach for the light switch, and flip it 
off.
    What he was trying to convey to various audiences, some of 
them in Kabul, I think, that we have to get on with this, some 
perhaps to some NATO partners, again, greater sense of urgency, 
perhaps some of us in uniform, and others, that we have to get 
on with this, we must produce progress while we have the 
opportunity, and that was the key behind the July 2011 date, 
not, again, that that is it or anything else.
    In fact, as Senator Lieberman reminded the SASC [Senate 
Armed Services Committee] this morning, I thought very 
importantly, the President used the word ``vital national 
interest'' in his speech at West Point, and that is--as you 
know, that is a code word that means a great deal.
    And that is why, when I heard the speech at West Point--and 
I was privileged to be there--I, again, took from it these two 
messages, one of enormous additional commitment, again, 
recognizing that we will have more than tripled our forces 
since he took office, basically, and tripled civilians and 
added more funding and authorization of ANSF and a variety of 
other activities, and then some complementary activities on the 
other side of the border, of course, with the Kerry-Lugar-
Berman bill, to show sustained, substantial commitment to our 
Pakistani partners, as well. That is all the commitment.
    And then there was the urgency piece, and that is what July 
2011 conveys.
    Mr. McKeon. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Ortiz [presiding]. Thank you.
    Secretary Flournoy, again, I want to thank you for 
appearing before our committee today.
    And, General Petraeus, thank you, sir. Good to see you. And 
you are looking well today. Welcome.
    General Petraeus. Remember my squad leader's advice--you 
are supposed to hydrate.
    Mr. Ortiz. Yes, sir. You know, recently, General McChrystal 
expressed concern over the number of private security 
contractors in Afghanistan, and he suggested that the 
contractors should be replaced by the United States military.
    General, do you agree with General McChrystal's assessment? 
And has a request been made for additional troops to replace 
the contractors? If so, when will those troops be deployed to 
Afghanistan?
    You know, and I can understand--I mean, with the increased 
violence reported between the United States forces and the 
private security contractors, in Afghanistan and with the 
majority of these contractors being Afghanistan nationals, I 
want to have a better feeling--and I think the committee, as 
well--I mean, how are these individuals vetted? I mean, how do 
they apply to become security guards or security forces to help 
our troops?
    I mean, do they go through a written test? Do they speak 
the same language that our soldiers need to be able to 
communicate with them? Are they tested? How do we go about--
because this is very, very serious. I mean, we are concerned 
with the safety of our soldiers.
    And not only that, when these convoys move, you know, they 
are bringing a lot of equipment, merchandise, ammunition, and 
whatever they might have to take to our troops now. Is this 
something that we are going to be able to see in the future, 
that they are going to be replaced by contractors because of 
what is happening?
    General Petraeus. Well, first of all, Congressman, there 
are different categories of contractors, of course. There are 
contractors that we have hired--and I think we are somewhere in 
the 15,000 to 20,000 range in Afghanistan, private security 
contractors, under DOD [Department of Defense] contracts. And 
then there are other private security contractors that secure 
any number of different legitimate Afghan businesses, 
activities, some of which we are contracting and others of 
which are, again, legitimate Afghan efforts or other countries' 
efforts, as well.
    The first category, if you will, those that we have hired 
to perform tasks that are related to our operations and 
missions, logistics, convoys, what have you, again, in concept, 
a great idea, I think, to have our forces do those. In reality, 
of course, that would mean replacement with a like number.
    And there is a reason that we contracted these out in the 
first place. It is either that at various times the tempo of 
our forces was so high or the cost of our forces is 
considerably higher or what have you.
    The fact is, I contracted out my own security in Iraq when 
I was a three-star because we didn't have enough military 
police and other security forces. I was standing up the train 
and equip mission, enormous organization, but we didn't have 
the kinds of existing structures. We weren't in an existing 
headquarters with security. We were just a bunch of individuals 
brought together. And to go downtown, to go out and do our 
missions and so forth, we needed security.
    So I was finally given a military police company for me and 
a couple of the senior folks. I said, well, heck, I am 
important enough, I can contract out my security, someone will 
actually pay for that, and you can take the MP [military 
police] company and whatever else we can cobble together and 
use that to secure other members of the headquarters.
    That is how we end up in this kind of situation. And I am 
not sure that we are at a position where I think I would want 
to take forces from other combat roles to perform these private 
security contractor missions.
    Now, having said that, we do need to get them--and we are 
working on this--and we learned these lessons, some of them the 
hard way, in Iraq--to get them more integrated into our 
situational awareness tools, and command and control, and 
common operational picture, and the like, to make sure that we 
de-conflict their activities to make sure there is not 
fratricide, they are not interfering with one another, and so 
forth. And I think there has been progress in that regard.
    Beyond that, we have got to come to grips with the issue 
that is created where, in some cases, we are trying to train 
Afghan forces, we invest in their human capital, and then we 
hire them away from the Afghan forces--or not we do, but other 
private security contractors or others hire them away to use 
them for these other functions.
    That is an issue that extends beyond private security 
contractors, by the way. It is one that Ambassador Holbrooke 
and I discussed with President Karzai when we were out there a 
couple of months ago for the civil-military review of concept 
drill. And, again, that is yet another issue that we have to 
work out, and the Afghan government has to help us with that to 
make sure that there is a policy at the least that is similar 
to what we have.
    You know, when the Army sent me to graduate school, I had 
to pay back three years, if you will, of additional active 
service obligation for each year that I was in graduate school. 
They don't have that. We have got to get that kind of policy, 
and President Karzai is working on it.
    Mr. Ortiz. But going back to the vetting process, I mean, 
15,000 security guards, that is a big number. How do we know 
what we are getting? I mean, how do we know they can be 
trusted? I mean, there has been incidents with their--and I 
don't know whether they are rumors or real facts--that 
sometimes they are shooting at our troops. So my concern is, 
how do we get to hire these people?
    General Petraeus. Well, this is, again, the piece that I 
was talking about with respect to, in some cases, also, using 
the authorities that you all gave us in the defense 
authorization act several years ago, when it comes to 
contractors working for DOD. We have authorities over them, in 
some respects, if they are Americans. And a number of these are 
at least in the upper echelons.
    And then laying down the requirements to them for the 
vetting, for the de-confliction, for the situational awareness, 
and for the coordination of their operations, because that is 
how we minimize the cases of fratricide that you alluded to.
    Mr. Ortiz. Mr. Bartlett.
    Mr. Bartlett. Thank you. Thank you both for your service.
    I want to ask two questions related to addiction. The first 
is the West's addiction to oil, and the second is the Afghan 
addiction to the revenues from poppies.
    It is my understanding that 10 percent of all of the 
dividends that British investors receive come from BP. That 
means that this company is enormously important in the economy 
of England. If we push too hard and jeopardize the financial 
stability of BP, I think we put at risk the strength of the 
coalition and the British participation.
    Are you all at the table when decisions are made of how 
hard we are going to squeeze in this area?
    Secretary Flournoy. The Defense Department is certainly 
represented at the interagency process in decision-making on 
handling the oil crisis, yes.
    Mr. Bartlett. Do you have any concern about the strength of 
the coalition relative to the politics of what is going on now 
in this gulf crisis?
    Secretary Flournoy. Sir, my judgment is that the President 
is focused on holding BP accountable for its responsibilities 
in this disaster. I also believe that, based on Secretary 
Gates' recent interactions and others with our British 
counterparts, the new government there, that their commitment 
to Afghanistan remains quite firm and remains so even in the 
face of tremendous economic pressures that they have already 
experienced.
    Mr. Bartlett. I hope that you are right, and I hope that 
pushing too hard will not jeopardize the financial stability of 
BP, which I think may very well result in some cracks in the 
coalition.
    My second question has to do with the addiction of the 
Afghans to the revenues from poppies. Obviously, there are some 
considerations we have there which are in tension.
    First of all, the revenues from poppies, we know, largely 
funds our enemy there. We also know that if we destroy poppy 
fields, that it makes recruiting of additional personnel for 
both the Taliban and al Qa'ida much easier.
    How are we doing at straddling these two problems? On the 
one hand, it is kind of damned if you do and damned if you 
don't. If we push too hard, we are driving these people into 
the arms of al Qa'ida and the Taliban. And if we don't, we are 
just helping to create more revenues for the enemy. How are we 
doing?
    Secretary Flournoy. Sir, I think, because of the risk that 
you just framed, our strategy toward counternarcotics in 
Afghanistan has shifted over the last year, year-and-a-half, 
away from a real focus on eradication and more focus now on 
crop substitution, support to farmers to make the switch to 
licit crops, support to the sort of systems of systems that get 
the crops, you know, planted, harvested, to market, et cetera.
    Eradication still is ongoing. It is an Afghan lead. But we 
have focused our efforts more on enabling Afghan farmers to 
make different choices away from poppy and doing it in a way 
that doesn't drive them into the arms of the insurgency.
    General Petraeus. And also targeting the industrial 
narcotics kingpins much more, making them the focus, rather 
than the little guys.
    Mr. Bartlett. I understand that highly ranked people in the 
Afghan government have meaningful ties to the poppy trade. Are 
we handling that well?
    General Petraeus. First of all, we have to have the kind of 
intelligence that can be sufficiently hard to really convince 
people that this is the case. And, second, even better, of 
course, is if we can turn that into evidence.
    In those cases where that has been possible, there have 
been. In fact, as the chairman mentioned, there have been some 
recent cases prosecuted generally revolving overall corruption 
and narcotics trafficking together.
    The challenge is a great deal of hearsay and much less in 
terms of the very hard intelligence that can enable you to go 
after these. If we get hard intelligence, we will go after them 
with our Afghan counternarcotics partners, as military 
operations, as well, because of the connection that you 
mentioned earlier between the Taliban, which receives about a 
third of their funding from illicit narcotics activities, a 
third from general criminal activity, taxes and so forth, and 
then a third from outside remittances.
    Mr. Bartlett. Thank you.
    Thank you, Mr. Chairman.
    The Chairman [presiding]. I thank the gentleman.
    Dr. Snyder, please.
    Dr. Snyder. Thank you, Mr. Chairman.
    Thank you both for being here.
    Secretary Flournoy gave a speech just last week at the 
Center for a New American Security on my mother's birthday, by 
the way, Secretary Flournoy, and I am going to direct a 
question to you, General Petraeus, but I am going to quote from 
a part of the speech in which the Secretary said the following.
    ``To put it bluntly, we are still trying to face 21st 
century challenges with national security processes and tools 
that were designed for the Cold War and with a bureaucracy that 
sometimes seems to have been designed by the Byzantine Empire, 
which as you recall did not fare so well.''
    ``We are still too often rigid when we need to be flexible, 
clumsy when we need to be agile, slow when we need to be 
responsive, focused on individual agency equities when we need 
to be focused on the broader whole-of-government mission.''
    Last week, our subcommittee had a hearing on some of these 
interagency issues. And the GAO [Government Accountability 
Office] testified on a report from September 2009, which they 
just reconfirmed, and this is what they said: ``In our prior 
work, we have identified situations in which the lack of 
interagency collaboration has hindered national security 
efforts. For example, we have previously reported and testified 
that, since 2005, multiple U.S. agencies, including the State 
Department, USAID [United States Agency for International 
Development], and DOD, led separate efforts to improve the 
capacity of Iraq's ministries to govern without overarching 
direction from a lead entity to integrate their efforts.''
    ``We found that the lack of an overarching strategy 
contributed to U.S. efforts not meeting their goal of key Iraqi 
ministries having the capacity to effectively govern and assume 
increasing responsibility for operating, maintaining, and 
further investing in reconstruction projects.'' That is the end 
of the GAO statement.
    General Petraeus, my question is, how much do the Byzantine 
processes that Secretary Flournoy refers to hold you back in 
Afghanistan? Can you give us some specific examples of how? And 
should this issue of interagency reform be a much higher 
priority for the Congress than it is now?
    General Petraeus. Well, if I could just start off by saying 
that I thought that that was a characteristically elegant and 
incisive analysis by the Under Secretary of Defense for Policy.
    Dr. Snyder. I agree with you.
    General Petraeus. There was a reason that, as I noted 
earlier, she was part of the counterinsurgency conference that 
began the whole process that resulted in the--I think it was 
the fastest production of a field manual by any service, in 
this case, two services together, probably in our history, and 
a fairly meaningful one, at that.
    I would like to think that we did over time integrate the 
efforts in Iraq considerably. I think that certainly by the 
mid-2007 timeframe, Ambassador Crocker and I had forged a 
partnership, developed a civil-military campaign plan that was 
so civil-military, in fact, that the mission statement 
frustrated both of our respective chains of command when it 
went further up, because it was seen as too civil on my side 
and too military on his side of the chain of command.
    Having said that, I felt that, again, over time, we were 
able to integrate what it is that we were doing. And, frankly, 
I have described the same process with respect to Afghanistan 
in this effort to get the inputs right, a component of that, 
key component has been to forge the kind of civil-military 
effort and integration, in this case, one that has got a much 
greater component of NATO, of course.
    In fact, General McChrystal's operational hat is his NATO 
hat, and he has a NATO senior civilian rep who is part of his 
Ryan Crocker, as he also has the U.S. Ambassador, Karl 
Eikenberry, and then the U.N. SRSG [United Nations Special 
Representative of the Secretary-General].
    I am sure that if we looked at various aspects of 
interagency reform, that there would be some fertile fields to 
till there. I know that there have been efforts to do this in 
the past. I remember all the way back--I think when the Under 
Secretary was a mere Deputy Assistant Secretary--PDD 
[Presidential Decision Directive] 56, I think it was, talked 
about addressing complex interagency scenarios or something 
like that. It was hugely impressive as a document, as a 
concept, but it was very difficult to implement.
    Again, it is flat hard to bring them together. We have seen 
it in the intelligence community, certainly, as well, I think. 
So I do think, as she described, there are some fertile fields, 
and I was going to ask if she might provide supporting fires, 
but our time is up.
    The Chairman. General, thank you very much.
    Mr. Thornberry, please.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General, a few months ago, General Flynn published an 
article that was critical of intelligence in Afghanistan. I am 
sure it is a lot better partly because he is in charge of 
improving intelligence in Afghanistan. I am sure it is a lot 
better particularly in those areas where he talked about the 
deficiencies, culture, who is the tribal leaders, and so forth.
    But I would be interested in your views as to how--or what 
it says about us, I guess, in a way, that we could be in 
Afghanistan for eight years and be so deficient in 
intelligence. I mean, if there is a kind of bedrock concept, it 
seems to me, in the counterinsurgency manual, it is that we 
have to be learning, adaptable organizations.
    And yet we were there eight years with deficiencies that he 
describes, and I guess, obviously, where that leads us is, how 
do we know we are getting better and learning the lessons we 
need to learn now for the future, that we are not locked into 
some mindset that is going to make it harder for our troops to 
accomplish what we ask them to accomplish?
    General Petraeus. I think the short answer to that, 
Congressman, is that, frankly, we under-resourced the effort. 
In fact, when I took over Central Command, as any commander 
does when he takes over a new organization, you do a strategic 
assessment. We did that, got a bunch of big ideas out of it 
that were hugely important to guiding me as I took on the new 
position.
    And one of the biggest of the big ideas was that we did not 
have--we had neither the intelligence capability, nor the 
intelligence capacity needed in Afghanistan and Pakistan to 
carry out the kind of comprehensive, civil-military 
counterinsurgency campaign that was necessary.
    In fact, one of the earliest meetings that I had after new 
appointments were made with the new administration was with 
Admiral Blair to ask him to appoint--there was not even a 
mission manager in the DNI [Director of National Intelligence] 
structure for Af-Pak [Afghanistan and Pakistan], much less a 
deputy--associate deputy director. He actually ultimately 
appointed an associate deputy director, not just a mission 
manager.
    Central Command did not have the adequate structure. We 
created the Afghanistan-Pakistan Center of Excellence. In fact, 
we took the same intelligence individual, senior intelligence 
service civilian who did this for me in Iraq, and he is now 
doing it for Afghanistan and Pakistan, and doing it 
magnificently, Derek Harvey.
    And as you noted, one reason that Mike Flynn was in 
Afghanistan was to fix the very challenges that he perhaps 
almost too eloquently described. You know, when you use a word 
like ``clueless,'' that is probably a little bit too 
rhetorical.
    But at the end of the day, it was a forthright assessment, 
and that is why he was there, was, indeed, to come to grips 
with that. And in the meantime, we have devoted considerable 
additional resources.
    I could enumerate a number of different initiatives that we 
have pursued. Among them would be important would be not only 
the proliferation of greater numbers of human terrain teams 
that were so helpful in Iraq and are now so helpful in 
Afghanistan, but also the development of what we call a human-
terrain database, and we have a variety of different systems, 
applications so that we can constantly build.
    What we did previously, to a degree--this is an 
overstatement to say that, you know, we fought Afghanistan for 
seven years in seven one-year increments, but the fact is that 
we didn't capture, we didn't develop the sufficiently granular 
understanding of the areas, and that is what this all depends 
on.
    Every insurgency is local. Therefore, every 
counterinsurgency has to be local. And you have got to 
understand the dynamics of each village and city.
    And I have seen in recent months what we call deep dives--I 
have participated in them--for, for example, certain areas in 
the Kandahar area. I have been on the ground in three of the 
most important districts of Kandahar and the city itself. And 
there is, indeed, a much greater knowledge.
    But we still have work to do in that regard. You can't fix 
something like that without, again, devoting the kind of 
resources that have been part of getting the inputs right on 
the resource side, which as I noted included tripling the 
military, but also considerable additional devotion of 
resources from each of the different intelligence agencies. And 
I have talked to the heads of each of the intelligence 
agencies, as well, CIA [Central Intelligence Agency], NSA 
[National Security Agency], DIA [Defense Intelligence Agency], 
and so forth.
    The Chairman. I thank the gentleman.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you both for being before us again.
    General Petraeus, I have a couple questions for you. I want 
to talk a little bit about Iraq for a minute, since you also 
have some jurisdiction over that.
    I remember in one of my first trips to Iraq, at the time, I 
believe, General Odierno was a two-star, and I asked him at the 
time how many insurgents he thought we still had left to take 
care of in Iraq. I think it was maybe the winter of 2003 or 
2004, as I recall. And at the time, he told me 536. He said we 
were done, we were just around the corner, we had turned the 
corner, we are getting this done.
    So many, many years later, we have a President who has a 
drawdown schedule, as you said. We are going to draw down to 
50,000 troops, and I don't know what the picture looks like 
after that for Iraq, but maybe about a month-and-a-half now, I 
saw General Odierno, now a four-star, commanding out there in 
Iraq, and he gave his estimate that the Afghan army and customs 
and police, et cetera, would not be ready to take over and 
really secure their country for at least 5 to 10 years.
    General Petraeus. General Odierno was talking about the 
Afghan army?
    Ms. Sanchez. Yes.
    General Petraeus. Or the Iraqi army? Or the Iraqi army?
    Ms. Sanchez. I am talking about Iraq.
    General Petraeus. Okay, the Iraqi army. Okay. Got it.
    Ms. Sanchez. The Iraqi army. So----
    General Petraeus. I am--with respect, I am not familiar 
with that assessment. If I could just----
    Ms. Sanchez. That was on TV, so----
    General Petraeus [continuing]. Interject right here----
    Ms. Sanchez. So--you know, so we are in 2010. We are in 
Iraq. We are trying to get down to 50,000 troops, costing me an 
arm and a leg to have these people out there, our troops who 
are, by the way, doing a great job, but it is costing us money.
    When do you think we are really out of Iraq? And if I can--
after that answer, I would like to hear what you think of your 
assessment in your professional military judgment, if it looks 
that you conclude that additional troops are needed to 
successfully accomplish the mission in Afghanistan right around 
December 2011, will you ask the President for additional 
troops? And how long do you really think we are going to be in 
Afghanistan?
    General Petraeus. Well, let me answer the last one first, 
if I could. If, in my best professional military judgment I 
think we need more troops, then I think I have an obligation to 
the President and to our troops and to you, the American 
people, to ask for more troops. That is what we do. And I know 
that he expects us to give him our best professional military 
advice and then also to support the policy when the decision is 
made.
    With respect to Iraq, we will get down to 50,000 by the end 
of August. We are on track to do that. The decision has been 
made, and we are, indeed, executing that decision. And that is 
the responsible drawdown plan.
    Beyond that, as you know, our mandate, if you will, runs 
out at the end of 2011, so our remaining troops, barring some 
further agreement with the Iraqi--the new Iraqi government, 
which still has to be formed, of course, would be--at the end 
of that year--would pull out.
    Having said that, there are reasonable expectations--in 
fact, actually, some of the Iraqi leaders have at various times 
even publicly stated that they would like to have an enduring 
security assistance relationship with us. The fact is, they 
want to buy F-16s. They have signed a letter of request. They 
have bought a variety of other hardware. They have bought 
billions of dollars already of foreign military sales.
    Ms. Sanchez. Before my time runs out, General, when do you 
think we will really be out of Iraq? And when do you think we 
will really be out of Afghanistan?
    General Petraeus. Well, we will really be out of Iraq with 
combat forces, again, by the end of 2011. That is the----
    Ms. Sanchez. Even if----
    General Petraeus. That is the agreement. There are nearly 
700,000 Iraqi Security Force members in that country now, 
Congresswoman. They have been in the lead in operations for 
months, if not a year or more at this point in time, by varying 
levels----
    Ms. Sanchez. No, I have no doubt, but the commanding 
general there said, you know, he thinks 5 to 10 years before 
they will be able to secure.
    General Petraeus. With respect, I am just not familiar with 
that assessment, nor is the Under Secretary, and that is 
generally our line of work, so I am a little bit surprised with 
that. We do video teleconference with him all the time, so----
    Ms. Sanchez. I was surprised, too, when I saw him on TV 
saying that.
    General Petraeus. Now, again, it may be a more nuanced 
thing that implies that, you know, they might need some kind of 
air cover for a number of years or something like this. The 
fact is, they don't have front-line fighters, if that was the 
issue. And there are some other capabilities that will take 
years to develop that you just can't go out and buy an F-16 
Block 52, which is what they have asked for, and, you know, get 
it into the country, put a guy in the cockpit, and have him be 
proficient. So in that sense, it may be that that was what he 
is referring to.
    More importantly, I think, is just the security assistance 
role. We have robust security assistance arrangements, as you 
know, with many countries in the region. In fact, the United 
Arab Emirates last year alone purchased nearly $18 billion 
worth of foreign military sales and foreign military finance, 
and a good bit of which goes to California, I think, as well. 
So, again--and we have that with many of the countries.
    Ms. Sanchez. I understand that, but we also don't have 
100,000 troops----
    General Petraeus. And that is the kind of relationship----
    The Chairman. The----
    Ms. Sanchez [continuing]. Or 50,000 troops in most of those 
countries.
    General Petraeus. Well, 50,000 by the end of August, but 
going down to a security assistance relationship, again, by the 
end of 2011, I think.
    The Chairman. The----
    Ms. Sanchez. Thank you, General.
    General Petraeus. And that is probably where we are headed. 
Great to see you again.
    The Chairman. Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And, Madam Secretary, thank you for being here.
    General Petraeus, thank you so much, both of you, for your 
service. I am very grateful, General, as a parent. I have had 
two sons serve in Iraq under your command. We are joint 
service, Army-Navy, and I have a nephew that just concluded his 
service serving in Iraq in the Air Force. And I know of your 
capabilities. And as a parent, I am just so appreciative of you 
looking out for our troops and protecting our country.
    Additionally, I am very grateful that, as a veteran, for 
your service. I am a former member of the 218th Brigade. For a 
year, they served in Afghanistan, led by General Bob 
Livingston. We were very proud of their service. And their 
relationship with the Afghan army and police developed into a 
great appreciation as Afghan brothers.
    And so I know firsthand the achievements that are being 
made, and I know that those of us in South Carolina are very 
grateful for our adjutant general, Stan Spears, who has 
commanded our troops, and the largest deployment from our 
state, 1,600 troops, since World War II.
    So thank you. I know firsthand.
    General Petraeus. Congressman, can I just very quickly not 
only thank for what your sons and your nephew have done, but 
also say how proud you and all South Carolinians--heck, the 
whole country--can be of the 218th Brigade and General Bob 
Livingston, who as you know then came and joined the Central 
Command staff. We reluctantly allowed him to return to his home 
state for further duties.
    But, again, he is a great leader, and we were delighted to 
have him there as part of CENTCOM nation.
    Mr. Wilson. And I want to commend Fort Irwin, the National 
Training Center. It was 10 years ago this month that we went 
out for our desert training----
    General Petraeus. Yes.
    Mr. Wilson [continuing]. In the summer of 2000 and helped 
the brigade get prepared, so I know what the training can be.
    General, I am concerned with the number of IED attacks, the 
increase in Afghanistan. I am very concerned that the Army and 
Marine high-mobility, multipurpose wheeled vehicles do not have 
a sufficient fire suppression system. What is being done to 
counteract that threat, to reduce the just gruesome fire 
injuries?
    General Petraeus. Well, Congressman, first of all, let me 
just say that the new MRAPs [mine resistant ambush protected 
vehicles] that we are working hard to get into Afghanistan, to 
my knowledge, they do have a sufficient fire suppressant 
system. Let us confirm that, please, and get back to you.
    [The information referred to was not available at the time 
of printing.]
    General Petraeus. But the all-terrain MRAP, which the 
Secretary ordered production, you all funded on an urgent 
basis, and industry has produced at record speed--because we 
have moved this to--this is a case where we are way ahead of 
schedule. We originally thought we would not have all the MATVs 
[military all-terrain vehicles] out there until sometime next 
spring. It now looks as if we will not only have them out 
there, but all of them in the hands of our troopers by the 
November-December timeframe, and that is an extraordinary 
accomplishment by, again, transportation nation, as well as 
industry and with you all's funding.
    So that will go a very long way. That will get just about 
everybody else out of up-armored Humvees, because some of the 
original MRAPs, as you know, are too large for some of the road 
structures, quite a bit of the road structures in Afghanistan.
    Mr. Wilson. And I appreciate you expediting the new 
technology. And in fire suppression, that needs to be done. In 
fact, I point out that the equipment we used 10 years ago was 
all now in a museum because of the improvements.
    Secretary Flournoy, I support the funding for the Afghan 
Security Forces. It is an increase of almost 50 percent. But to 
avoid corruption in the security forces, where people are 
desperate because of the low pay, supporting their families, 
this needs to be addressed.
    With the additional funds, can this be executed? What 
capabilities will be developed by the additional funding?
    Secretary Flournoy. Sir, the additional funding goes for a 
range of things, from pay and benefits to infrastructure, 
equipment, training, sustainment.
    But very importantly to your point about corruption, it 
used to be that the members of the ANSF were not paid a living 
wage in Afghanistan. And so they sought other ways to support 
their families, and that engendered a great deal of corruption.
    One of the major reforms that has taken place is an 
increase in the pay of both and a reduction in the disparity 
between the two, army and police. That, plus additional 
benefits, looking to their ability to support their families, 
house them, et cetera, should make a big difference, in terms 
of lessening corruption in the force.
    Mr. Wilson. Thank you very much.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Mrs. Davis.
    Mrs. Davis. Thank you, Madam Secretary.
    General, thank you very much for your service and being 
here, of course, today.
    I want to follow up on a question regarding the police 
force that the chairman asked, and just more specifically, as 
we focus on Kandahar. The New York Times just ran the article 
that there really are only about 800 to 1,000 police officers 
trained, Afghan police officers trained out of 100,000 in the 
country in Kandahar.
    And what do you think it really is going to take in order 
to have the numbers there to facilitate the kind of operation 
and the kind of, really, development that we are looking for in 
Kandahar? And how long is it going to take us to get there?
    General Petraeus. Well, in fact, the approach is going to 
be the deployment of additional forces, and not just additional 
local police trained, but also use, again, here of the Afghan 
National Civil Order Police, in addition to the recruiting, 
training, and then assigning of additional police.
    Importantly, a large number--I think over half of the 1,000 
who graduated from the latest Afghan police officer course, are 
being assigned to the south. And this--and, by the way, the way 
that the Afghan National Military Academy assignments were done 
this year, which was by lottery, basically, as opposed to by 
who you knew or what your family tree is, these are important 
advances in that regard.
    Now, in Kandahar, we are also going to add additional U.S. 
Army military police who will partner with a greater density on 
those police that are there, even, as I said, that the training 
capacity and assignments are increased, as well. And then that 
will be augmented by the Afghan National Army and our forces in 
the districts around the city.
    Mrs. Davis. One of the things that we know, of course, is 
that they are being targeted. And I would suspect--and we 
certainly heard this on our trips--is that one of the concerns 
is the recruitment, but then who protects those forces? Is 
there sufficient capability there to really support them so 
they know that----
    General Petraeus. The only--and this comes to what I talked 
about earlier. When you are conducting counterinsurgency 
operations, the first and most vulnerable forces are the host 
nation local police forces.
    And in Iraq, there were entire swaths of the country in 
those areas that were dominated by al Qa'ida or other Sunni 
insurgents or, in some cases, the Shia militia extremists, in 
which there were no police whatsoever. They could not survive.
    And the only antidote to that, the only solution is that 
you must clear that area of the insurgents, reduce the 
insurgents, but in many cases--and this will be the case in 
Kandahar--you are not going to see a Marjah-like operation. 
Marjah had a huge concentration of insurgent infrastructure, 
Taliban headquarters, IED manufacturing factories, basically, 
car bomb makers, explosive experts, medical facilities, 
everything, and also in there, substantial numbers of the large 
industrial narcotics bosses, and their infrastructure and 
supplies.
    That had to be cleared. And that was a conventional 
clearance operation. It was actually done in a skillful way 
that avoided some of the casualties that I thought, frankly, 
were going to take place and avoided a lot of the damage to the 
village. It was not destroyed to save it, as the saying goes.
    Kandahar will be different from that. In Kandahar, you 
don't find huge concentrations. You find intimidation, 
assassinations----
    Mrs. Davis. General, is it true, as well, that there in 
Kandahar--and certainly in Zabul province and in others--we are 
just having trouble really identifying the insurgents? That is 
what our special forces are telling us. And, of course, on the 
one hand, people are suggesting that a lot of them are 
homegrown. They were young kids who were there at 10 years old, 
and now they are--you know, they are fighting us, basically.
    General Petraeus. I think, again, one of the other 
increases--and this comes back to the intelligence question 
earlier. It is very much related to that. You have to be able 
to understand the enemy networks in a very granular fashion, as 
well.
    And the elements taking that on are our high-end special 
mission units, which we have tripled the numbers of those 
elements and their assault elements on the ground, as well, and 
their analysts and other supporting enablers, and we have done 
the same with some of the other elements.
    So they are getting their hooks into the enemy. You may 
have seen--we don't announce it all the time, but there was an 
important Taliban leader killed very recently, for example, in 
the Kandahar area. And we think we do have a much better 
understanding of the network itself.
    Mrs. Davis. Thank you.
    The Chairman. I thank the gentlelady.
    General, are we winning in Afghanistan?
    General Petraeus. Mr. Chairman, defining winning as making 
progress, then I think we are winning in Afghanistan. It is a 
roller coaster ride, however. It is very much an experience 
that has setbacks, as well as modest successes.
    It is a tough process. And it does get harder before it 
gets easier, even when you are making progress. The way you 
make progress is you have to take away from the enemy his 
sanctuaries, his safe havens, his leaders, his explosives, 
caches, and all the rest of that.
    There is nothing easy about that. But, again, I think that 
we have got the inputs largely in place, we are seeing the 
beginning of the outputs. That is progress, and therefore, that 
is winning.
    The Chairman. I thank the general.
    Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Thank you both for being here. General, yesterday, when you 
were testifying before the Senate, as has been referenced 
several times in this hearing, you were asked about the issue 
of timelines, and your answer was that we have to be very 
careful with timelines.
    And I understand your answer to being one that there are 
risks and that there are issues that we must be concerned with 
that evolve separate from timelines.
    General Petraeus. There can be benefits, too, if I could. I 
mean, again, what I have pointed out is that July 2011, with 
respect, is a message of urgency. It is not a message of, 
``This is when we go home.''
    Mr. Turner. Great. And I appreciate that you had made that 
point. And that is, I think, a very good one, because it 
certainly motivates everyone.
    But I know, also, as you look to a timeline, you look to, 
you know, the to-do list of what we are to accomplish, what 
type of standards or evaluations might occur as we approach 
those timelines.
    One of which that I am very concerned about is opium 
production in Afghanistan and the narcotics trade. There has 
been several questions. I asked you about that. But I have a--I 
have a chart that I like to hold up in our hearings.
    And this is a chart from CRS [Congressional Research 
Service]. And it shows the opium production in Afghanistan from 
1981 through 2009. And what I like about this chart is that if 
you fold it exactly in half, you get a picture that shows you 
that, in fact, what we have had is an opium production surge, a 
narcotics surge, if you will, in Afghanistan.
    And, in fact, the last four years, years in which we have 
been there, are--you know, if you will, if you look at this 
chart, extraordinarily increases in opium production.
    Now, we all know that when you fold this in half, you say, 
well, maybe that is like the historical production of opium, 
and you look at those last four years, where things have been 
more difficult for us in Afghanistan. We know that this trade 
is supporting insurgency. We know that this trade is supporting 
the Taliban.
    And my question is, is that we begin to approach those 
deadlines of July 2011, as we look to the issue of our surge 
and our troops, which we are facing an opium or narcotics 
surge, what should we expect to see in these lines? Are we 
going to see them go back to the beginning of when we were 
there, or are we still going to be at a time where we have an 
opium or narcotics surge?
    General Petraeus. Well, first of all, just to update the 
slide, if I could, Congressman, in this year, what we have seen 
is another substantial reduction in poppy production. And that 
results from a number of different reasons.
    One is that there has been continued effort to provide crop 
alternatives. There has been some eradication, although as the 
Under Secretary explained, we have reduced that in favor of 
going after the narcotics kingpins, and that has been another 
reason that there has been some downturn.
    There have been a number of initiatives in what is called 
AVIPA [Afghanistan Vouchers for Increased Production in 
Agriculture], which is an AID [Agency for International 
Development] program that funds a variety of different seeds, 
fertilizers, and other implements to enable the production of 
either wheat or saffron or other substitutes.
    There have been some environmental issues, and there has 
been a continuation of the poppy blight that has caused 
problems, as well. And then some local Afghans, because of 
programs that have incentives connected to them--I am talking 
Afghan governance now--have incentives connected to being 
poppy-free and so forth, have really gotten quite energetic 
about that, as well.
    So you really have a situation now where, for the last four 
years, counting this year, there have been significant 
reductions after, as you note, quite a considerable increase, 
about four or five, six years ago.
    I think that trend will continue. It is certainly our goal. 
We waited in the case of Helmand province until the poppy was 
harvested before pursuing some of these additional initiatives, 
and we will have to see how the fall crop goes, because I think 
that will be a canary in the mine shaft, as for indicating 
that.
    Mr. Turner. I appreciate you making that a priority, 
General.
    General Petraeus. Absolutely.
    Mr. Turner. I had the opportunity to meet with you in Iraq 
three times, once when you were in Mosul----
    General Petraeus. Right.
    Mr. Turner [continuing]. Once when you were with the Iraqi 
troops in training----
    General Petraeus. Right.
    Mr. Turner [continuing]. And then another time after the 
surge.
    General Petraeus. Right.
    Mr. Turner. And, of course, it was here when you were in 
Cannon after the surge for Iraq and the enormous room that was 
filled with so many people scrutinizing your answers, I 
appreciate that today you come forth with a credibility----
    General Petraeus. Privileged to do it.
    Mr. Turner [continuing]. That has a little less attention, 
but nevertheless still great importance. Thank you.
    The Chairman. Thank you, gentlemen.
    Mr. Langevin.
    Mr. Langevin. Thank you, Mr. Chairman.
    Secretary Flournoy, General Petraeus, thank you for your 
testimony today. And, particularly General Petraeus, thank you 
for your service, and I hope you will again convey our 
appreciation to all the men and women in uniform under your 
command who serve. We are grateful for their patriotism, 
dedication, everything they do for our Nation.
    General Petraeus. I will do that, Congressman. Thank you.
    Mr. Langevin. Thank you.
    I obviously want our Nation to succeed in our effort in 
Afghanistan. And yet I look at where we are and the cost in 
blood and treasure. I look at the strategy. I know that we 
have--under General McChrystal's recommendation, we are 
pursuing a counterinsurgency strategy versus counterterrorism 
strategy. And I think the jury is still out as to whether it is 
going to work. Of course, I am reserving judgment, still 
supportive of the overall effort in Afghanistan.
    But I do question, why is it that, in other areas of the 
world, in Yemen, for example, other areas where we are 
concerned about growth of terrorist groups like al Qa'ida, why 
they are we are pursuing a counterterrorism strategy and in 
Afghanistan we are pursuing a counterinsurgency strategy? Why 
one place, not the other? And why are you so convinced that 
counterinsurgency is going to work, versus counterterrorism, 
which would rely on less troops and more targeted strikes on 
terrorists' training camps or strongholds?
    General Petraeus. Well, first of all, counterterrorism 
strategy is a component of a counterinsurgency strategy, 
without question. Again, that is a very important element of 
it.
    We worked hard to kill or capture or run off, as an 
example, in Iraq, the al Qa'ida leaders, and even their rank-
and-file. You may recall when I testified in September 2007 I 
had something called the Anaconda strategy. And what I sought 
to explain with that, though, is that you don't deal with a 
terrorist organization just with counterterrorist forces. It 
takes a whole-of-government approach.
    Now, the difference in Yemen is that there are Yemeni 
governmental elements, Yemeni forces that are capable of 
carrying out some of these operations, and, in fact, the bulk 
of the operations, without question. We are helping them to 
develop their capabilities further. We are helping them with 
equipment, with your 1206 funding, and a variety of other 
assistance. We are helping them with intelligence-sharing, both 
ways, I might add, because al Qa'ida in the Arabian Peninsula 
is also tied into the extremists in Somalia and all the way 
over into the Arabian Peninsula and up into Pakistan, as well.
    If I could, I think Pakistan is instructive in this regard, 
because what you see in Pakistan is a combination of a 
counterterrorist strategy. You see extremist leaders being 
killed in a campaign, but you don't see in some cases their 
sanctuaries or safe havens being taken away, and therefore, 
they can regenerate, they can replace themselves, and so forth.
    It doesn't mean that it is not hugely important to take 
out--I think Vice President Biden noted one time, on the 
record, that some 12 of a constantly updated list of top 20 
extremist leaders in the Pakistan border regions have been 
killed in the last 18, 24 months. That is hugely significant.
    Obviously, it puts enormous pressure on the network. It 
disrupts them considerably. But it doesn't put a stake through 
their heart.
    The only way you put a stake through their heart is by 
taking away ultimately their sanctuaries, their safe havens, 
and beyond that, even the reasons why those areas are fertile 
grounds for extremist activity in the first place, for the 
planting of seeds of extremism.
    And so, ultimately, again, it comes back to a whole-of-
governments--with an ``s'' on the end--approach. That approach 
is necessary, because you just don't ever kill or capture your 
way out of these kinds of significant problems that we have.
    If the problem is very discrete and small--and 
interestingly, in Iraq, al Qa'ida in Iraq now, distinguished 
from Naqshbandi and the resistance, is more of a strictly 
terrorist problem now and can be handled much more with 
strictly counterterrorist forces.
    We have, with our Iraqi partners, for example, killed or 
captured 34 of the top 42 al Qa'ida in Iraq leaders in the 
course of the last 6 months or so. That is hugely significant. 
It put an enormous dent in them.
    So when you can whittle the problem down--but we got to 
that point by a whole-of-governments approach that involved the 
Iraqi government, our forces, and other coalition forces, that 
included politics, fostering the awakening, reconciliation, 
getting it codified in legislation, hiring the Sons of Iraq, 
and addressing the basic reasons why, again, some of those 
areas were fertile grounds for extremism in the first place, 
among a host of others.
    And I will get the Anaconda slide to you, again, 
Congressman, because I think it is quite illustrative of why 
you have to do this.
    [The information referred to was not available at the time 
of printing.]
    General Petraeus. In Pakistan, where the Pakistanis have 
gone after with counterinsurgency operations in Swat Valley, 
eastern-south Waziristan and elsewhere, they have kept those 
free of extremists of all flavors. In the areas where that has 
not yet been possible, even though the leaders might be killed, 
they are still going to regenerate. And that is the Achilles' 
heel of a counterterrorism approach.
    Mr. Langevin. Thank you, General. Again, thank you for your 
service.
    General Petraeus. Thank you, sir.
    The Chairman. Thank you.
    Mr. Hunter, please.
    Mr. Hunter. Thank you, Mr. Chairman.
    Thank you both for your service. I remember saying last 
year, General, that having you and General McChrystal on the 
ground was like having Belichick and Brady, had the dream team 
working over there. Just glad that you are there. Thanks for 
your leadership and for what you are doing for our military.
    General Petraeus. Well, and thanks for what you did 
downrange, Congressman.
    Mr. Hunter. Thank you.
    As you know, IEDs have gone up about 236 percent in the 
last year. And my question is--this was anticipated. We knew it 
was going to happen as we surged in troops. I know it has been 
one of our top priorities, not only yours, but this Congress's, 
this committee's. It has been one of our top priorities.
    But when we talk about metrics and how we gauge success, I 
think the greatest metric that we can use is the number of 
casualties or KIA [killed in action] taken from IEDs, how many 
IED caches that we find, how many IED emplacers that we kill.
    And, one, I am just wondering if you have any information 
like that or that you use as a metric to gauge maybe this 
compared to Iraq. That is my first question.
    And following up on that, you have already spoken--Mr. 
Langevin touched on this--Admiral Olson, who we all know, 
special ops, highest special ops commander in the U.S. 
military, he said, ``he fears that counterinsurgency has become 
a euphemism for non-kinetic activities. The term is now often 
used to describe efforts aimed at `protecting populations.' He 
said counterinsurgency should involve countering the 
insurgents, and he calls our COIN [counterinsurgency] an 
oxymoron.''
    So on one hand, we have him saying--this was May 26th, I 
believe--we have him saying this in kind of direct conflict 
with what you are saying here now, and correct me if I am wrong 
and that is not true, and what General McChrystal's strategy 
is.
    But specifically, my question is, is our COIN strategy 
having any effect on our inability to counter IEDs, 
specifically the emplacers of IEDs, because we are not taking 
kinetic action against them, rather, we are waiting to exploit 
the network, to back track, to follow them, track them down, 
and that kind of thing? Is our failure in cracking down and 
stopping the IEDs a result of our strategy over there?
    General Petraeus. I certainly don't think it is, 
Congressman. I think, in fact, doctrinally, counterinsurgency, 
according to a reasonably good field manual that was published 
in late 2006, states that counterinsurgency operations are a 
mix of offensive, defensive, and stability and support 
operations.
    And the challenge is always to get the mix right and, more 
importantly, to know in a sense where you are locally with 
respect to what that mix should be, because at any given time 
in a country--I remember--of course, as an Army officer, to 
communicate, we use PowerPoint, and we produced a PowerPoint 
slide that showed the mix throughout the country at a 
particular snapshot, and then we zeroed in on a province, and 
then went in further, to show--in that case, we wanted to show 
how versatile our leaders needed to be.
    In other words, they need to be capable--they need to be 
pentathlete leaders, capable of not just offense and defense, 
the traditional operations, and now with much greater enablers, 
in terms of intelligence, surveillance, and reconnaissance, as 
you know firsthand, but also able to do the stability and 
support tasks, where you do, indeed, sit down and drink many 
cups of tea and, indeed, support the civil aspects of the 
effort, because they in a certain case, once you reach a 
certain security threshold, can be every bit as important as 
kinetic operations, but not----
    Mr. Hunter. But specifically the IEDs?
    General Petraeus [continuing]. But not if you are in a 
kinetic mode. And so if you are going after the IED networks, 
indeed, there is certainly not a hesitation to pull the trigger 
against somebody who is planting an IED, have seen to be 
planting an IED, unless--I mean, occasionally, we do make a 
tactical judgment.
    Let's see if this guy is going to--let's follow him back to 
where he came from. Let's see if we can get something more than 
just the low man on the totem pole. Let's see if he tracks back 
to where his cell leader might be, where his weapons cache 
might be, and so forth. We did this a lot in Iraq, where you 
don't kill the guy who is shooting at you with a mortar right 
then. You want to track him back to where he got the mortar 
rounds from and see what else is there.
    There is no question that the improvised explosive device 
numbers have gone up there. One reason they have gone up is 
because they don't want to take us on frontally. They do not 
want to get in direct firefights the way they used to back, 
say, in 2004 or 2005, even 2006. More recently, there was 
guidance explicitly put out that we are aware of that told the 
Taliban to avoid direct firefights and, indeed, to use the 
indirect approach, which means IEDs and some indirect fire use, 
as well.
    Thank you.
    Mr. Hunter. Thank you, General.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you very much. And thank you both 
for being here.
    General Petraeus, are we nation-building? I heard you talk 
about education, roads, health care, agriculture, electricity. 
Are we nation-building here?
    General Petraeus. We are, indeed. Now, we are enabling. We 
are supporting. In some cases, we are doing. People have asked 
me, for example, what was the first big strategic decision you 
made in Iraq early on? This is when I was a division commander. 
And the first big strategic decision was--which I announced to 
all of our battalion commanders and brigade commanders, 
gathered them all together, and I said, hey, fellows, you know 
what? We are going to do nation-building----
    Ms. Shea-Porter. But let me just say that----
    General Petraeus [continuing]. Because there is nobody else 
around to do it.
    Ms. Shea-Porter. Well, let me just say that I have heard 
over and over again that we are not nation-building, that we 
are here, you know, in Afghanistan for a different reason, in 
that----
    General Petraeus. Well, we are there for a different 
reason, but to accomplish the--again, you can't keep extremists 
from re-establishing sanctuaries if you don't carry out a 
comprehensive campaign, one component of which clearly can be 
described as nation-building. I mean, I am just not going to 
evade it and play rhetorical games.
    Ms. Shea-Porter. I appreciate that.
    General Petraeus. That is not our principal mission.
    Ms. Shea-Porter. I appreciate that. But in the interest----
    General Petraeus. The reason we are there is not nation-
building.
    Ms. Shea-Porter. Right. In the interest of time, though, 
Richard Barrett--it was reported in the Financial Times that 
Richard Barrett, the head of a United Nations team tracking the 
Taliban and al Qa'ida, was quoted as saying that our large-
scale effort in Kandahar will actually drive the people into 
the arms of the Taliban.
    He is the former head of counterterrorism for the Secret 
Intelligence Service for England. And I have great concerns 
about that. I know that our intentions are very good, but here 
is somebody who certainly knows this area, knows how things 
work, and he says that our efforts are actually driving the 
people to the Taliban.
    In addition, we had Karzai suggesting that America launched 
a rocket grenade attack on the peace conference that they had.
    General Petraeus. That is--Congresswoman, that is hearsay. 
That is not something as far as I said, I can assure you.
    Ms. Shea-Porter. Okay, thank you. Okay, then.
    General Petraeus. That is from an individual who, frankly, 
had some reason to be somewhat angry at President Karzai at 
that moment in time.
    Ms. Shea-Porter. But Karzai has been making comments about 
the United States, negative comments. I think we all agree that 
we have heard some negative comments.
    So my question is, is Richard Barrett right?
    General Petraeus. Well, I don't think so. I don't know how 
you get rid of extremist elements if you don't go in and get 
rid of extremist elements. I am at a loss.
    I read that, I must confess. I don't know Richard Barrett, 
I don't think. Although I have had quite a few dealings with 
the SIS [Secret Intelligence Service], that name doesn't ring a 
bell.
    But, again, I don't know how you get rid of insurgents if 
you don't kill, capture, or run them off, or reintegrate or 
reconcile with them. I mean, there is only a variety of ways 
you can do that.
    Ms. Shea-Porter. I certainly----
    General Petraeus. And we are going to try all of those, by 
the way.
    Ms. Shea-Porter. Well, I certainly recognize that we have 
to have some kind of footprint in Afghanistan, but there has 
been a lot of concern lately that we are actually increasing--
as we apparently did in Iraq--increasing the number of people 
who were local insurgents who were joining up out of 
frustration, out of rage, out of, you know, a number of reasons 
for that, so I have a lot of concern about----
    General Petraeus. I take issue within Iraq. There may have 
been periods in Iraq where we contributed to it, both by 
policies as well as actions, especially early on. We learned a 
lot about counterinsurgency, and we learned about the 
importance to test every policy by the question, will this 
policy produce more individuals with a stake in the success of 
the new Iraq or less? And if it is less, you probably should 
think twice about it or not.
    Ms. Shea-Porter. Well, again----
    General Petraeus. Over time in Iraq, if I could, over time 
in Iraq, because our soldiers did some exceptional work, and I 
don't want it on the record that I agreed or accepted that our 
soldiers made more enemies----
    Ms. Shea-Porter. No, I--this is----
    General Petraeus [continuing]. Than they did not, because, 
in fact, it was our soldiers who went and went into the 
neighborhoods----
    Ms. Shea-Porter. General Petraeus, in the interest of 
time----
    General Petraeus [continuing]. In the sectarian violence--
--
    Ms. Shea-Porter [continuing]. It is not our soldiers. It is 
not our soldiers at all. The soldiers have been absolutely 
fantastic. It is a question of whether our policy is correct or 
incorrect. And I am concerned, when----
    General Petraeus. Well, I think we have got the right 
policy there, too, if you will. And I think the results----
    Ms. Shea-Porter. Okay. But it is not our soldiers.
    General Petraeus [continuing]. Speak for themselves.
    Ms. Shea-Porter. I think we both agree our soldiers are the 
best. But my concern--General McChrystal said that Marjah is a 
bleeding ulcer.
    General Petraeus. He didn't say that, ma'am. He said that, 
in the eyes of the outside world, Marjah is a bleeding ulcer.
    Ms. Shea-Porter. Okay.
    General Petraeus. It is very important that we get these 
things precise----
    Ms. Shea-Porter. I agree.
    General Petraeus [continuing]. Because there have been a 
lot of these, if I could, and they get repeated and repeated. 
And so that is why, with respect, I have interjected.
    Ms. Shea-Porter. In Congress, we certainly understand that, 
as far as being repeated.
    General Petraeus. Oh, never. It has never happened to you, 
has it, Congresswoman?
    Ms. Shea-Porter. Not ever. Okay. But the tribal elder in 
the same article said that, by day, it is the government, and 
by night, it is the Taliban. Now----
    General Petraeus. There are some cases like that. This is 
counterinsurgency and insurgency. I mean, this is a war. And 
that is what takes place, and we had that in Iraq, as well. And 
over time, what you are trying to do is to create situations in 
which, as many people as possible have an incentive in seeing 
the new structure, the new local governance, provincial 
governance, national governance succeed, rather than fail, and 
that is really the objective.
    Ms. Shea-Porter. Okay. And one last question. Do they 
respect Karzai's government?
    Mr. Taylor [presiding]. Ma'am, ma'am, you are over your 
time.
    Ms. Shea-Porter. Okay, thank you. I yield back.
    Mr. Taylor. The gentleman from Colorado, Mr. Coffman.
    Mr. Coffman. Thank you, Mr. Chairman.
    General Petraeus, Ambassador Flournoy, thank you so much, 
first of all, for your service. In 2006, I was the civil 
affairs officer with the United States Marine Corps in the 
Western Euphrates River Valley----
    General Petraeus. I remember it.
    Mr. Coffman [continuing]. In an area that had a lot of al 
Qa'ida influence, and it was very difficult to encourage the 
population to cooperate with us because of fear for what--just 
the intimidation factor of what al Qa'ida might do to them or 
would do to them if, in fact, they were caught doing so.
    Now, in Afghanistan right now, there are media reports 
that--the President's speech at West Point, where he talked 
about a date for which we would begin the process of drawing 
down our forces, that that has filtered down to the Afghan 
people and has had an influence whereby they are less 
cooperative because they see that our presence is limited, 
where the Taliban's is not.
    I wonder if you can comment on that, General Petraeus.
    General Petraeus. There may well be a case where that is 
the situation, but I don't think it is throughout the country. 
I mean, what they are seeing right now is an enormous increase 
in our forces. Remember, when President Obama took office in 
January 2009, this was an under-resourced effort, at the end of 
the day.
    I mean, what I have explained is what we have done over the 
last 18 months to try to resource it properly and to get the 
inputs right. And what they are seeing is a threefold--more 
than threefold increase, from 31,000 to 98,000, just U.S. 
forces, I think 8,000 or 9,000 additional NATO forces, and now 
in the process of growing another 100,000 Afghan National 
Security Forces.
    So, again, there is an enormous additional commitment, a 
president who has labeled this a vital national security 
interest, indeed, has used a date to convey a message of 
urgency, as I have explained--and if you weren't here earlier, 
I will give you my statement, because I felt it important 
enough to put that on the record with the Senate Armed Services 
Committee and then did the same thing here today.
    And I think that is what is hugely important. This is not a 
date when the United States races for the exits and turns off 
the light switch. It is a date at which a process begins that 
is based on conditions that govern a pace of transitioning of 
tasks to Afghan forces and officials and governs the beginning 
of a responsible drawdown of our surge forces.
    Mr. Coffman. Thank you, General Petraeus. I hope that the 
Afghan people realize that. We certainly do.
    To both of you, I am very concerned about the governance 
piece, that there are certainly reports in Marjah that the 
kinetic operations went well, certainly by our forces and 
Afghan forces, but there wasn't the governance piece as a 
follow-on by the Afghans to, in fact, do that piece.
    And without a reliable partner, it doesn't matter at the 
end of the day how successful we are in terms of tactical 
operations, we are not going to go anywhere unless they can 
fill that void, after we provide security.
    General Petraeus. Well, there is no question that that is 
the long pole in the tent in any counterinsurgency effort. As 
you experienced again, also, in the Euphrates River Valley, 
where it was very difficult--we could clear a town, and there 
was nobody to take it over from us, there was no transition, 
and there was certainly not a sheikh willing to stand up and be 
part of the new Iraq government at that time because the ones 
who did, out in western Anbar, as you will recall, got their 
heads chopped off, until we really got the sustained Anbar 
Awakening to take root, but we had to protect them. That was 
the key.
    With respect to Marjah, indeed, the clearance operation 
really was quite commendable, I think. The Marines that were 
engaged in that did very impressive work, U.K. up to the north 
of it, other areas of Nadi-Ali, as well, did not destroy the 
place to save it. They cleared it. They went over a lot of it, 
as you will recall, and then came back and took the enemy from 
behind, and so forth.
    And the governance piece, as always in these efforts, is 
difficult, especially in Afghanistan, where human capital does 
not lie around in abundance after 30 years of war and where 
contractors pay more than the government does.
    There is, however, a district governor there. For what it 
is worth, I walked through the market of Marjah with him. We 
went and bought bread from the local bread vendor. Yes, we had 
security around us. I didn't have body armor or Kevlar on in 
this case, but also had dozens, if not hundreds, of Afghans all 
around us, as well, and wanting to chatter with us and 
everything else.
    We also visited a school that had reopened. Again, I think 
there are 80 teachers in the Marjah area alone that have come 
back. The Taliban didn't permit that. There is reconstruction 
of a variety of other basic services and so forth.
    None of this easy, but it is taking place.
    Secretary Flournoy. If I could just----
    Mr. Taylor. Please.
    Secretary Flournoy [continuing]. Very brief, on your very 
important point about communicating to the Afghan people, our 
enduring commitment, when President Karzai and 14 members of 
his cabinet came in May for our strategic dialogue, we spent a 
lot of our time not only talking about where we are today in 
the campaign, but also the longer-term relationship, 5 years, 
10 years, and beyond, and what kind of work we want to do with 
Afghanistan on security assistance and education, in economic 
development, and so forth.
    And we are actually beginning to work on a strategic 
framework for the long-term relationship, that we will be 
coming and talking to you more about as that develops, as well. 
But I think as that becomes more public, it communicates, I 
think, that, you know, there may be contours in the nature of 
our involvement there, but this is an enduring commitment. This 
is an area of vital interest, and we will stay committed to the 
people of Afghanistan and to their assistance.
    Mr. Taylor. The gentlewoman from Massachusetts, Mrs. 
Tsongas.
    Ms. Tsongas. Thank you, and good afternoon to you both.
    I have to say, I have been sitting here, that I am a 
skeptic. And I made my first visit to Afghanistan in January of 
2008, soon after I was first elected to Congress. At that 
point, I think the general feeling was that we had sort of 
dropped the ball by diverting our resources to Iraq, but that 
once we came back and engaged, it would be fairly 
straightforward. In fact, I can remember speaking to one of our 
generals who said it would be a piece of cake.
    A year later, I went back to Afghanistan, we had a newly 
inaugurated President who had revisited it and was committing 
17,000 soldiers, and, again, taking a longer time to consider 
going forward what was needed. And I felt a sense of hopeful 
optimism, especially with the civic-military sort of dual-
headed effort there.
    And yet I came back with a lot of questions, because 
essentially I felt the situation had become quite different in 
the intervening year and that we were facing a new war effort, 
not a continuation of what had taken place earlier, but given 
the dynamics in Pakistan, the re-emergence of the Taliban, that 
it was a wholly different effort and needed a wholly different 
thought process.
    And then we went back again this year, roughly a year 
later, and again you could see the impact of our great build-up 
there, and yet I didn't come away feeling particularly 
confident for all the reasons we know, the many questions we 
have around the Karzai government, the issue of corruption, the 
challenges we have had training the police and the national 
army, better with the army, but extraordinary challenges with 
the police, and all the huge economic issues that the country 
as a whole faces.
    So I remain very skeptical, although I have to say, I do 
very much appreciate the extraordinary efforts of our military, 
and particularly the young soldiers who are serving on our 
behalf.
    We did meet with Afghan women as part of--they had a small 
shura. We were in Qalat, which is north and east of Kandahar. 
And, you know, there was some reassurance there. A PRT 
[Provincial Reconstruction Team] there had brought them 
together. They talked about having better health care, better 
education. There were some women who had essentially been 
beggars, talking about the small modest economic opportunities 
for them.
    But they also said how fearful they were for accessing all 
the things that we have tried to put in place so that we could 
deal with the capacity-building and the civic side.
    And so I have a question that is sort of related to that, 
that, yes, we are making these extraordinary investments, but 
they are not yet really reaching the people in the way that we 
need. Anyway, I came across a study that was done post-
Operation Moshtarak, and it really did try to sense the local 
Afghani perceptions of the operation.
    It was done by the International Council on Security and 
Development. And it interviewed over 400 Afghan men from 
Marjah, Lashkar Gah, and Kandahar in March, and the research 
results are very concerning. The research revealed that 61 
percent of the men interviewed feel more negative about NATO 
forces now than before the military operation and that 95 
percent of the men believe more young Afghans have joined the 
Taliban in the last year.
    If one of the main goals of the counterinsurgency strategy 
is to win the hearts and minds of the local population, it 
appears we are not doing well, at least according to this 
research.
    Also, the research stated 59 percent of those interviewed 
believe the Taliban will return to Marjah after the operation, 
67 percent did not support a strong NATO-ISAF presence in their 
province, and 71 percent stated they wanted the NATO forces to 
leave. Again, these are the results of an on-the-ground survey.
    So tell me both, General Petraeus and Secretary Flournoy, 
what benchmarks are you using to measure the effectiveness of 
the new counterinsurgency strategy? What specific quantitative 
and qualitative assessments are you using? You are testifying 
that our operations are producing slow, but steady improvements 
in security, stability, and capacity for governance, yet it 
seems many Afghanis don't share that opinion.
    And I have to say, given my very first encounter with one 
of our generals in that first visit, I am just very cautious of 
overly optimistic statements in the face of all the 
extraordinary challenges that we face to achieve our goals.
    General Petraeus. Well, first of all, Congresswoman, I 
don't think you have heard any over-optimistic statements from 
me. In fact, I specifically won't use the term optimism, nor 
pessimism, for that matter. I use realism.
    The Chairman [presiding]. Go ahead.
    General Petraeus. I have done that for a number of years, 
actually. I wish you had talked to me a couple of years ago, in 
fact, or go back and look at my statements on the record since 
taking command of Central Command. I have never believed that 
this would be straightforward. In fact, I have stated on the 
record on numerous occasions that, in certain respects, not 
all, because this is nowhere near the level of violence of 
Iraq. There are some other big issues.
    But in certain respects, this will be harder than Iraq, due 
to the lack of human capital, damaged after 30 years of war, 
illiteracy, lack of infrastructure, and so on. But as you 
noted, education, health care, roads, and electrification 
projects, a lot of the basic services have increased.
    Now, having said all that, we are still very much getting 
the inputs right. We are getting toward the end of that 
process. Studying Marjah within a couple of months of the 
operation is not, candidly, a productive analysis, in the view 
of this counterinsurgent. I mean, it takes many months, if not 
years, to see the results of progress in these kinds of areas.
    Furthermore, the truth is, we are not trying to win hearts 
and minds for ourselves. We are trying to win hearts and minds 
for legitimate Afghan governance. Now, that is a long pole in 
the tent, as well, without question, but again this is not 
about--we would love to have hearts and minds. We would love to 
be loved. And we said that in Iraq, as well.
    But at the end of the day, what we really wanted was for 
our Iraqi partners to gain the support of the people, and it 
was a case of promoting them, occasionally even letting them 
lambaste us in front of some crowd or other to enable them to 
make points, if that helped them win hearts and minds for 
themselves.
    So I am not completely surprised at all by the results of 
the survey. Again, having said that, I walked the streets of 
Marjah. I have been in Nadi-Ali. I would love to have some--you 
know, you ought to go downtown in Nawa, which is a place where 
we have devoted resources now for well over a year, and where 
you can see the kind of progress that is possible, not just in 
terms of establishing a security foundation on which you can 
build, but then actually building on it, with, again, more 
schools, with clearing of canals.
    As you know, the whole Helmand River Valley was really 
created by USAID some--I think more than 50 years ago now, back 
in the 1950s. And actually refurbishing that area and so forth 
is a hugely important component of what it is that we are 
trying to do. Same thing, again, with basic health care and a 
variety of others.
    So, again, I would be happy to temper anyone's optimism 
that you find with my realism. Having said that, I personally 
keep coming back to the fact that this is a hugely important 
mission. We believe this is the right approach, strongly, to 
accomplish that mission. And, again, that is a pretty important 
bedrock conclusion, I think, that one keeps coming back to.
    We talked about, you know, can you do counterterrorism 
versus COIN? Well, first of all, they are both entwined. But it 
is--as Ryan Crocker, the great ambassador Ryan Crocker, world's 
finest diplomat, my wingman in Baghdad, used to say about Iraq, 
it is all hard, and it is hard all the time. And that is 
reality.
    Thank you.
    The Chairman. I thank the general.
    Before calling Mr. Conaway, the same question of you, Madam 
Secretary. In your experience, in your opinion, are we winning 
in Afghanistan?
    Secretary Flournoy. I would define winning similarly to 
General Petraeus, in the sense of, are we making progress? And 
I think if you--granted that counterinsurgency is always one 
step forward, two steps back, two steps forward, one step back, 
it is full of progress and setbacks simultaneously.
    But if you look overall at the trend lines, I think we are 
heading in the right direction, we are on the right trajectory. 
And I do look at polling results in Afghanistan. But I also 
take them with a grain of salt, because it is an extremely 
difficult thing to do, conduct an objective poll in such a 
contested and hostile environment.
    That said, what I try to look at is actions, behaviors. Are 
people in the area cooperating more? Are they taking risks for 
the sake of a more secure and stable environment? Are they 
participating in governance? Is there more legitimate economic 
activity? Are they accepting and participating in Afghan 
governance? Is there some reduction in violence and casualties? 
Those sorts of things that I think are more concrete.
    And, again, I think, as General Petraeus said, you know, 
there are many challenges. The picture remains mixed. Are we 
there yet? Absolutely not. But I think when you look at where 
we were a year ago, the strategy we have put in place, the 
leadership we have put in place, the resources we have put in 
place, and the progress that has started to be made, that we 
are heading the right direction and we need to give the 
resources and the strategy a bit of time to make further 
progress in a way that is more definitive.
    The Chairman. Thank you.
    Mr. Conaway.
    Mr. Conaway. Thank you, Mr. Chairman.
    Ms. Flournoy, General Petraeus, thank you for your service, 
and thanks for being here this afternoon and tolerating this 
inquisition.
    Iraq has oil, land, arable land, and water, resources that 
can support an economy and a form of government that makes 
sense for them. Up until Sunday, I had the same impression of 
Afghanistan, in that I expected the world's communities to be 
financially supporting the military there for a long time in 
order to get that done.
    The New York Times article in which you were quoted, 
General Petraeus, some trillion dollars' worth of value of 
minerals, copper, gold, somebody called it the Saudi Arabia of 
lithium, that is a game-changer. From a $12 billion annual 
economy, $1 trillion is natural resources that can be properly 
and safely and environmentally friendly exploited, could lift 
an awful lot of folks out of poverty, address the issues that 
drive much of the problem that the country has in stabilizing 
itself.
    Can you--and one final point. The article went on to say 
that the Pentagon has been aware of this since 2007 and has, in 
effect, let it languish somewhere on a shelf. Can you talk to 
us about--both of you, talk to us about the broader context of 
what this means for that country?
    General Petraeus. Well, first of all, we need to be 
measured in our expectations about how quickly Afghanistan can, 
indeed, capitalize on what is truly extraordinary mineral 
blessings and also timber blessings and some other very 
exploitable resources that it has. The fact is that----
    Voice. That is why we are in Afghanistan----
    The Chairman. The lady will remove--the lady will remove 
herself. Order. Order. The lady will remove herself. The lady 
will remove herself. Please remove her. That is all right.
    Voice. It is mass murder----
    General Petraeus. If I could just comment on a point that 
the woman made that--you know, the fact is, if we wanted Iraq's 
oil, we could have bought it for the next four decades with 
what we spent probably in a couple of years.
    The Chairman. Exactly.
    General Petraeus. And as you know, the mineral wealth is--
as you noted, I think an awareness of that grew probably in 
recent years, but it just so happened that Deputy Under 
Secretary Paul Brinkley, the head of the Task Force for 
Business Stability Operations at the Pentagon, who did 
magnificent work in Iraq bringing businessmen back to that 
country, back when no one else was coming to Iraq.
    And we helped him. I was his partner in this. We 
transported them, housed them, fed them, secured them, and 
everything else to try to do anything to get people re-
interested in a country that we knew had incredible potential, 
but which at that time was seen as just so violent as to be 
impossible in which to do business, even for the so-called 
adventure venture capitalists.
    And in the case of Afghanistan, he has engaged here. We are 
supporting him here, as well. In fact, I asked him to go to 
Afghanistan some months back. He has already made several trips 
out there. He has been impressed by the potential that he has 
seen in a host of different areas, actually, and now the 
question is how to enable the Afghan government to develop the 
kinds of legal regimes, in addition to the security foundation, 
but then also the legal regimes, the infrastructure, the 
capital investment, the training of a workforce, and all the 
rest of that, to enable them to extract these mineral resources 
and get them to a market somewhere in the world.
    That will not be one of those that will be coming soon to a 
theater near us, but it is something that, as you noted, holds 
out a prospect that is entirely different from the perception 
that many of us had for years, that Afghanistan was, in a 
sense, going to be a ward of the court that would always be 
subsidized to a substantial amount by the outside world, trying 
to help it deal with its extremist problems.
    Michele, did you want to----
    Secretary Flournoy. I just wanted to add that, I think, 
since the U.S. geological initial survey was done, this has 
caused us to really focus a lot of attention on building 
capacity in key areas like the Ministry of Mines, the Ministry 
of Finance, the sort of Afghan wherewithal to begin to put an 
Afghan plan in place for how they are going to manage this 
potential.
    The Pentagon did not sit on these results at all. I think 
Mr. Brinkley has been hard at work and working very intensively 
with our folks downrange in the embassy and with Afghan 
partners for quite a while now.
    General Petraeus. And, in fact, one of the recent trips, 
when I was in Afghanistan about two or three ago, I ran into 
him in Kabul, and he had some of these adventure venture 
capitalists with him. That was, obviously, good to see.
    Mr. Conaway. Thank you, Mr. Chairman.
    Thanks. Appreciate it.
    The Chairman. Thank the gentleman.
    Ms. Pingree.
    Ms. Pingree. Thank you, Mr. Chair.
    Thank you, Secretary Flournoy and General Petraeus, for 
being with us today and for your great service to this country. 
We greatly appreciate that, and I want to say at the offset how 
much I appreciate the hard work and sacrifice of our troops, 
particularly representing the state of Maine, where we have a 
high proportion of people who have served in the military. We 
are grateful for their work and their sacrifice and the 
sacrifice of their families.
    Like a couple of my previous colleagues, I guess I want to 
take issue with a little bit of your perspective on this and 
elaborate a little bit on how I feel about that. I disagree 
with you basically on the premise that our continued military 
presence in Afghanistan actually strengthens our national 
security.
    Since the surge of troops in southern and eastern 
Afghanistan started, we have seen only increased levels of 
violence, coupled with an incompetent and corrupt Afghan 
government. I am of the belief that continuing with the surge 
and increasing the level of American forces will have the same 
result, more American lives lost, and we will be no closer to 
success.
    In my opinion, the American people remain skeptical that 
continuing to put their sons and daughters in harm's way in 
Afghanistan is worth the price being paid. And I think they 
have good reason to feel that way.
    It seems that increased military operations in southern and 
eastern Afghanistan have resulted in increased instability, 
increased violence, and more civilian casualties, some of which 
we have already discussed today.
    Meanwhile, pulling out of an area not only reduces the 
level of violence, the local Afghan leaders sometimes end up 
turning against the Taliban. Lieutenant Colonel Robert Brown, 
Commander of a U.S. Army unit that came under attack in 
Kamdesh, described what happened when his company was ordered 
out of the area. Colonel Brown said, ``If you pull out the 
coalition forces, you open up the natural seams between the 
traditional leaders and the Johnny-come-lately Taliban.'' 
According to Colonel Brown, his patrolling troops were just 
providing a recruitment tool for the insurgency.
    The chair alluded to this same kind of sentiment earlier, 
but I want to repeat a remark of the former Russian ambassador 
to Afghanistan, who was a KGB agent in Kabul when the Soviets 
were occupying the country. He said the USA has ``already 
repeated all of our mistakes and has moved on to making 
mistakes of their own.'' He said the single biggest mistake the 
Soviets made was letting their military footprint get too 
large.
    We are now on track to have more troops in Afghanistan than 
the Soviets did at the height of their occupation. So can you 
comment on this? Was Lieutenant Colonel Brown correct? Has the 
escalation of U.S. forces increased the insurgency? And was the 
former Russian ambassador correct that the presence of our 
forces is fueling the violence in Afghanistan and strengthening 
the insurgency?
    Thank you.
    General Petraeus. Well, first of all, Congresswoman, with 
respect to the Lieutenant Colonel, there may be cases where you 
pull out of an area and serendipity results in the form of 
local leaders who stand up to the Taliban.
    I am hard-pressed to think of cases where that has taken 
place, though, and I will have to see where it was that his 
element was deployed. In many cases where we have pulled out 
for one reason or another over the years, if it is a Pashtun 
area--and that is where we tend to be deployed--the Taliban 
will fill the void, together with the illegal narcotics 
industry, and they will revive the poppy crop, and, indeed, 
become a stronghold for the insurgency.
    Again, it is a fact that the Taliban controlled that entire 
part of the country, of course, Kabul and much of the rest of 
the country, as well, and that is where the 9/11 attacks were 
planned. That is why we are there, to prevent that from 
becoming an extremist safe haven again.
    The fact is that, when we do go into an area, in many 
cases, the violence does go up, and that is because we are 
taking away sanctuaries and safe havens from the Taliban, which 
is why we have to go into those areas.
    The campaign focuses on the major population centers. They 
have to be provided greater security. It is not just about 
stability. I mean, if you want--if all you want is stability, 
and you don't care who is in charge of that stability, then, 
again, you can give that to them, but then you obviously don't 
have control over what it is that takes place in that ``stable 
region.'' It may be that Kandahar was stable at the time of the 
Taliban controlling it, but the fact is that you also had al 
Qa'ida's senior leadership in there, hatching plots such as the 
9/11 attacks and others.
    So, again, you know, you have cited a couple of different 
isolated incidents and so forth, and I can probably cite as 
many isolated incidents in return, or perhaps even some 
firsthand accounts----
    Ms. Pingree. In the interest of time, I know I am going to 
run out here, so I will just say, I appreciate it, and I 
appreciate it from the start that you and I disagree. I wanted 
to put the sentiment out there that I do think increasingly the 
American public is concerned about the expense, the loss of 
lives, and I think all of us are concerned with our lack of 
success. But thank you very much for your service.
    General Petraeus. If I could just relate one, because this 
is important, I think, to this body. One of your members came 
out. She had just been elected. This was when I was in Iraq, 
and it was in the--probably still in the early months of the 
surge, and it was a very tough time.
    And she forthrightly, right before Ambassador Crocker and I 
could even open our mouths, she wanted me to know that she was 
a member of the Out of Iraq Caucus. And I said, 
``Congresswoman, so am I.''
    And so, I mean, in the sense that I share your concerns 
about getting out of there from a number of different 
perspectives--I will explain some of those later, perhaps--I 
share the concerns about the cost, about the stress on our 
force, about the sacrifices that our young men and women and 
their families have made and are making.
    But I also share a concern about the security of our 
country. And I don't share the idea that our presence does not 
strengthen our national security.
    I do think the reason we are in Afghanistan is very, very 
clear. And, again, it is about how we can accomplish that core 
objective that the President has articulated that is, I think, 
the real essence of the debate. But----
    Ms. Pingree. And I will just say, again, I appreciate your 
service. We have a strategic disagreement here.
    The Chairman. I thank the gentlelady.
    General Petraeus. And I appreciate yours, as well.
    The Chairman. Mr. Kissell.
    Mr. Kissell. Thank you, Mr. Chairman.
    Thank you, Madam Secretary and General.
    And, by the way, I am not sure anybody has wished you happy 
birthday, 235 years.
    General Petraeus. Well, actually, it is the Army's 
birthday. My goodness. You are exactly right.
    Mr. Kissell. So----
    General Petraeus. We will be celebrating that later this 
week in Tampa, I want you to know.
    Mr. Kissell. So happy birthday. General, this is my first 
term in Congress, but I recently got back from my third trip to 
Afghanistan, because I think it is important to our Nation. I 
think it is important for us to not only be aware of what is 
taking place on the ground, but to listen to the leadership, 
listen to the Afghans, listen to all our soldiers that we come 
in contact with.
    Myself and some of our friends here, we were the first 
congressional delegation to be asked to come into Kandahar 
City. I think you guys were in the week before we were, so I 
didn't do the 40 steps. I understand you all did. So--some of 
our guys did, too.
    General Petraeus. I was going to ask you your time in the 
40 steps, as well. If you do that, please bring a stopwatch.
    Mr. Kissell. I was the one that strategically decided not 
to. One of the things that General McChrystal mentioned to us 
in a briefing is that we were desperately in need of linguists, 
translators. And it surprised me a little bit. You know, if we 
are desperately in need of that--and I sent a letter to the 
chairman and to Secretary Gates to that effect--what are we 
doing about that?
    General Petraeus. We have a pretty comprehensive effort in 
that regard. We are, first of all, training linguists at the 
Defense Language Institute out in Monterey, California, and in 
some other service-provided locations, as well.
    We have had a full-court press on to recruit Afghan-
Americans and other Afghan native speakers and those who speak, 
again, Dari and Pashto and the other languages.
    In the United States and, frankly, elsewhere throughout the 
world, there has been recruiting of them in Afghanistan itself, 
and that has been problematic in some cases. And, in fact, that 
is a conundrum that we have, frankly, that in some cases, we 
are hiring away from the Afghan government individuals who were 
educated by the Afghan government to serve in the Afghan 
government and then we are taking them away from--in some 
cases, we are taking doctors who make more working for us as 
translators than they do working as doctors for some Afghan 
hospital.
    So we have got to come to grips with that. But I think that 
is the broad outline of what it is that we have done, and we 
have expanded that in every respect. But when you triple your 
forces on the ground in the course of about 18 months, there is 
no way--you know, it takes at least a year to train a linguist, 
at least, and probably more than that to be adequate----
    Mr. Kissell. And, General--and is there anything more we 
can do? Any resources that you need that we could provide 
toward that effect?
    General Petraeus. Sir, I don't know. I have been out of 
that business since I was a three-star out at Leavenworth, and 
we actually oversaw the Defense Language Institute. I just 
don't know what the capacity is at this point in time. I 
haven't personally sat down and compared our demand signal, 
which I know, but we, frankly, feed that to the services and to 
Joint Forces Command, and they then satisfy that demand.
    And I don't know how it is that they are producing at this 
point in detail, so----
    Mr. Kissell. Well, if there is----
    General Petraeus [continuing]. It is a service question, I 
think.
    Mr. Kissell. You know, once--if there is anything, just let 
this committee know, because this committee always has 
responded well.
    General Petraeus. Thank you, sir.
    Mr. Kissell. Just two or three real quick things. I 
recently wrote to the folks back home after being over the 
third time that I am realistically optimistic about what we are 
doing, because I believe that it is important to our Nation, I 
believe the leadership has the right plan, but it is awfully, 
awfully tough.
    I have also had General Arnold Fields in my office three 
times to talk about those things that we need to do better in 
all regards and to make sure we don't make some of the mistakes 
that we have made before and that we continue to do things that 
would help the Afghan people.
    The distribution of resources, especially in Kandahar, I 
think is real important because they are going to just a few 
people and sometimes that warlord-type person that has exerted 
the type of influence that we want to counter. I think that is 
very important.
    Electricity in Kandahar, we heard from the governor there 
and the mayor there and the police chief there, when the city 
goes dark at night, the Taliban has freedom of movement.
    And one thing that struck me very interesting is we were 
helicoptering out of Kandahar, out of the city. There were 
streets laid off to the east. It looked like something you 
might see in the American Southwest, you know, coming soon, 
Shangri-La or something. There is anticipation of business and 
commerce there, if they have the electricity, and a lot of 
places have moved out because of a lack of electricity.
    But I was impressed in Kandahar, the fact that there--you 
know, beautiful flowers, beautiful commerce, and thank you, Mr. 
Chairman, but, you know----
    General Petraeus. I walked the streets, bought bread there, 
too. And if I could just very quickly, we have a program--it is 
at the Office of the Secretary of Defense--to increase 
substantially electricity production in Kandahar City and also 
for the eastern and southern parts of the country.
    It would use CERP funds. That is a different use of those, 
but those funds are available, they are adaptable, they are 
accessible. Our understanding is that it meets the policy on 
the governing and the law. But, again, we would just ask your 
support if it comes to that, because this is one of those game-
changers, if you will. Like you said, if you can turn on the 
lights, turn on the businesses, and turn on security, then you 
have really made some progress.
    The Chairman. Thank----
    General Petraeus. The Taliban cannot produce electricity. 
They can do a lot of other things, but they can't produce 
electricity. Only the Afghan government can. And, again, that 
would be quite significant.
    The Chairman. Thank the gentleman.
    Mr. Heinrich.
    Mr. Heinrich. General Petraeus, Secretary Flournoy, I want 
to welcome both of you and thank you for all the hard work you 
have put into this effort.
    I was in Kandahar City with my colleague just two weeks 
ago. I don't want to give you my time on the 40 steps. It 
wasn't very impressive, but I did make it to the top.
    General Petraeus. You did do the 40 steps?
    Mr. Heinrich. I can't--I did.
    General Petraeus. I have got a coin for you, Congressman.
    Mr. Heinrich. That is a deal. I can't say strongly enough 
how much I support your response on the electricity issue. I 
think it is absolutely critical for what we saw on the ground 
there, and I really appreciate my colleague bringing it up.
    One of the other issues that, you know, we dealt with 
directly and got to see firsthand was the Afghan national 
police, the nature of the partnership we have there now, and 
one of my concerns with your testimony yesterday has to do with 
our NATO partners and the pace at which they are making their 
commitments, in terms of trainers.
    And I would like you to touch on that, if you would, and 
tell us, you know, why aren't we--why isn't that pace coming 
together more expeditiously?
    General Petraeus. Well, again, there are national reasons 
for that. In each case, they vary. The fact is, though, that we 
are short about 450 trainers, and then there are another 
numbers of hundreds that have been pledged that are not yet on 
the ground.
    And so notwithstanding the gains with respect to the ratio 
of trainers to trainees, which has gone from 1 to 80 to 1 to 29 
or 30, which is significant, we still have a good ways to go. 
And, in fact, as we increase capacity, that need may grow 
further.
    So we have employed a variety of bridging solutions. The 
Marines--the Commandant of the Marine Corps provided hundreds 
of trainers on an interim basis. The U.S. Army, we diverted an 
entire battalion to do this, as well. And that also has had an 
important bridging effect.
    But the bottom line is that this has not been adequate, and 
the Deputy Supreme Allied Commander in Europe today put out 
another request to the nations for the trainers that are 
required, and we will have to see what comes out of that----
    Mr. Heinrich. That is great.
    General Petraeus [continuing]. Given that Secretary Gates 
just highlighted that need during the recent defense 
ministerials of NATO.
    Mr. Heinrich. And I think that is absolutely critical. I 
want to switch gears real quickly. You used the phrase 
``Pakistani partners'' a little while ago, and I want to talk 
for a few minutes about Pakistan. I think whenever we talk 
about Afghanistan, we have to think regionally.
    As you know, there was an April 2010 report on progress 
toward security and stability in Afghanistan that said one of 
the weaknesses of this insurgency is their over-reliance on 
external support. And I think that finding reinforces the need 
for eliminating that support, regardless of where it comes 
from.
    This last weekend, we saw another report that was prepared 
by the London School of Economics that indicated that 
Pakistan's main intelligence agency continues to provide 
financing, training, sanctuary to certain Afghan Taliban 
insurgents, and exerts a greater influence over the Taliban 
than we previously thought.
    If we were to marginalize this group in Afghanistan and 
achieve greater security throughout the country, how do we 
address the issues with Pakistan to make sure that, while they 
are cracking down on Pakistan Taliban in places like Swat and 
east Waziristan, they seem to be sort of playing both sides of 
this game?
    General Petraeus. Well, first of all, I don't want to imply 
that I would accept the London School of Economics study or the 
individual who wrote that for them, his conclusions in all 
respects.
    Having said that, there is no question but that there are a 
variety of relationships there, some of which date back decades 
from when we used the ISI [Inter-Services Intelligence] to 
build the Mujahideen, who were used to push the Soviets out of 
Afghanistan.
    And some of those ties continue in various forms, some of 
them, by the way, gathering intelligence. You know, again, you 
have to have contact with bad guys to get intelligence on bad 
guys. And so it is very important, I think, again, to try to 
have this kind of nuanced feel for what is really going on.
    Now, what is indisputable is that, as you noted, the 
Pakistanis have carried out impressive counterinsurgency 
operations against the Tehrik-i-Taliban Pakistani and their 
affiliate, the TNSM [Tehreek-e-Nafaz-e-Shariat-e-Mohammadi], 
and some of the other organizations in the former North-West 
Frontier province and in a number of the agencies of the 
Federally Administered Tribal Area.
    Beyond that, they have also had attacked in a variety of 
ways a number of the other elements there. And, of course, 
there has been another campaign going on that I mentioned Vice 
President Biden alluded to in his comments about the more than 
12--and that was before number 3 was announced--senior al 
Qa'ida and other extremist element leaders, transnational 
extremist organization leaders out of an updated list of top 
20, killed during the last 18 months or so.
    The combination of that has been important. Having said 
that, I do believe that the Pakistanis recognize--the people, 
the leaders, the clerics, and the military all recognize that 
you cannot allow poisonous snakes to have a nest in your 
backyard, even if the--you know, the tacit agreement is that 
they are going to bite the neighbor's kids instead of yours, 
because eventually they turn around and bite you and your kids.
    And so I think there is recognition of the problem. What do 
we do about it? I think we have to continue what is slowly 
being seen by our Pakistani partners--and I say that word with 
sincerity--is as a sustained, substantial commitment. That is 
what they are looking to see.
    There is history here. Three times before, including after 
Charlie Wilson's war, we left precipitously after and left them 
with holding the bag, if you will. They have enormous 
challenges, not just in the security arena, but in the economic 
arena, social, political, you name it.
    And it is hugely important that we be seen--again, we be 
seen as partners by them and seen to be working to help them. 
They are doing the fighting. We are doing the enabling, if you 
will, with equipping, with funding, some of it coalition 
support funds to reimburse them for efforts that they exercise 
to secure our lines of communication through their country, and 
so on, some training, intelligence exchanges, and the rest of 
that.
    And I think, again, the key is the development, again, of a 
strategic relationship. And they also have recently been to 
Washington, as have the Afghan leaders, and that is the key to 
the way ahead, in my view.
    Mr. Taylor [presiding]. The gentleman from Pennsylvania, 
Mr. Critz.
    Mr. Critz. Thank you, Mr. Chairman.
    General Petraeus, Secretary Flournoy, thank you very much 
for being here, and thank you for your service to our country.
    My question is involving the provinces of Wardak and Logar, 
south of Kabul, and we have seen an improvement in the security 
situation there, and partly due to the presence of local 
militias. And the militias don't have really any formal tie to 
the Afghan national army. They are under the supervision of a 
local police chief.
    Can you elaborate on this a little specifically, and if 
there has truly been significant improvement in security due to 
the militia? And is there any plan to replicate these militias 
elsewhere in the country?
    And then, going further, is there plans to bring the 
militias under the supervision of the army? Or is it going to 
remain under the guise of the police chief? Thank you.
    General Petraeus. That is a great question, Congressman, 
because we are very much taking a comprehensive approach to 
this from a security perspective, all the way in the high end 
from targeting with our special mission units, and then with 
our partnered commando units, and so forth, all in the soft 
world of mid-level, if we can get them high-level, Taliban 
leaders, through conventional forces, together with Afghan 
elements that are clearing and then holding and building and 
getting ready for transition, on over to these local security 
initiatives.
    And there are several of these. One of these is what has 
been carried out in Wardak and Logar, the Afghan Public 
Protection Force--APPF is the acronym--they actually are tied 
into the Ministry of Interior, indeed, through local police 
chiefs, but they are paid by the Ministry of Interior.
    One of the issues right now that I have had to dialogue 
with General Caldwell on, in fact, is that they are not paid at 
the same rate as local police. And so that is one issue that 
does need to be dealt with, but they are, indeed, paid. They 
actually were trained before they went on the street by our--
our special forces elements who retain a partnership with them.
    And they are not really militia, per se. They are local 
security forces that do have a tie to the government. And that 
was a point of insistence by President Karzai and the then-
Minister of Interior, Hanif Atmar, when this program was put 
together.
    There are also village security programs where our special 
forces teams go out into small villages, live with those 
villages, and they are authorized to establish a small security 
force that, again, has a link back to a more robust quick 
reaction force as required from the Afghan National Security 
Forces.
    Again, this is linked through the Ministry of Interior. 
There is real potential here. There are also real concerns 
here. The Afghan national leaders are concerned that this could 
give--in a sense, legitimize warlord militias coming back to 
life after working very hard to demobilize those in the first 
few years after liberation of Afghanistan from the Taliban.
    And so I think it is prudent to be cautious. But, frankly, 
you also have to take some risk in this effort, especially when 
you are trying to produce progress as rapidly as is possible, 
because of a sense--understandable sense of urgency.
    And so these programs are being continued. They will be 
expanded. And, indeed, General Caldwell, General McChrystal and 
others are working with the Afghan government to fix some 
shortcomings that they have and to get the policies in place 
that can allow further use of them, where appropriate, and with 
the recognition that there are some risks that you take in 
establishing these forces, as well.
    Mr. Critz. Thank you, General. That is all I have.
    General Petraeus. Thank you, sir.
    Mr. Critz. I yield back.
    Mr. Taylor. Chair recognizes the gentleman from New York, 
Mr. Murphy.
    Mr. Murphy. Thank you, sir.
    And thank you, General and Secretary, for being here again 
today.
    Two points I was hoping to touch on. One, when I was in 
Afghanistan most recently, we were stuck a little bit in a 
catch-22, and the Secretary has addressed this before, but I 
would be curious to get the update, of--we are providing the 
money for rebuilding and for other things that people need, and 
so they kind of come to us, and it effectively infantilizes the 
Afghan government, but we are hesitant to give the money to the 
Afghan government because of corruption problems.
    And I am curious how we are doing on that. I know it is a 
big initiative that we are continuing to push on, and I would 
love to just get the kind of current state of affairs there in 
summary form.
    Secretary Flournoy. Okay. We have set a goal of trying to 
move more and more of our assistance through the Afghan 
government. What that requires is a process of certifying each 
ministry for financial accountability and absence of 
corruption.
    It is a painstaking process. The good news is, three of the 
key ministries have already passed. We have another three or 
four in the works. And we have a prioritized list that we are 
working through to get there. So we are aware of this dynamic 
and trying to address it.
    Mr. Murphy. So we have three currently, and three or four 
more that are in process?
    Secretary Flournoy. I think it is three or four, and 
another--and then there is another tranche after that that we 
will be starting very soon.
    Mr. Murphy. Great. The second question I have relates to 
the same--similar issue, in terms of transitioning to Afghan 
government control over things. And I have been hearing from a 
number of people in the near past that the constitutional 
structure is a problem for us.
    We kind of know Afghanistan is very decentralized 
historically, culturally, in terms of these local areas, but 
the way the constitution got put together, for a whole host of 
reasons, it is very much that it kind of comes from the top 
down, and Kabul appoints the governors and the deputy 
governors.
    And I am curious how you are seeing that impact us on the 
ground, as we are trying to work in these local areas, in 
particular in the Marjah operation and trying to help build a 
successful local government. And is there a way to work in that 
construct? Or is this--I mean, obviously, we can't change their 
constitution, but is that something that really needs to change 
for us to get to where we have local elections and a locally 
driven thing?
    I mean, we get frustrated with it here in Washington, 
because the guys locally yell at us for spending too much money 
and then ask us to send them the money, but it is a process 
that works here. And I am curious where you see that going.
    Secretary Flournoy. I think, you know, what we have seen 
happening is a blending of the governance structures set up by 
the constitution and the more traditional social structures. So 
a lot of what is happening is you will establish, for example, 
a district governor and a district council.
    But he will basically use the traditional shura process 
with local tribal leaders to sort of advise him and the council 
on how to distribute resources, how to prioritize projects, et 
cetera.
    So my sense is that the constitution is not a barrier at 
this moment to really building the basic governance--putting 
the basic governance pieces in place. Whether down the road 
they want to make tweaks to the constitution, you know, that 
may be something that they want to address. But I don't think 
we are seeing it as a real barrier to making some of the 
progress that needs to happen, particularly at the local 
levels.
    Mr. Murphy. Would you agree with that----
    General Petraeus. Very much so. In fact, what has to happen 
is there has to be a working from the bottom up even as there 
is also a working from the top down. And the bottom up means 
traditional local organizing structures. There is good use made 
of those. And the idea is to mesh those at about the district 
level, which is the lowest level typically that the central 
government might appoint officials, and then to have that 
district governor and other national officials at district 
level mesh with the local shura councils who are ideally are 
representative of the entire spectrum of tribes and other 
elements in a particular area.
    And that is actually happening. Now, it is problematic in 
some places where--just take Arghandab as an example. You may 
have two-thirds of Arghandab district represented in the shura 
council, but there still might be a third or a quarter that for 
reasons of Taliban intimidation or other reasons is not 
represented. And that is obviously problematic and has to be 
dealt with over time.
    And, indeed, that is one of the efforts that is part of the 
greater Kandahar province security effort.
    Mr. Murphy. But so in Helmand and in Kandahar, we are 
seeing those local shura councils meeting and working well with 
those district governors and subdistrict governors?
    General Petraeus. We are. And, again, in the Marjah area, 
as an example, you can trace the security envelope or umbrella 
by how far out you have shura council representatives, because 
where you run into the areas beyond which the Taliban might 
have influence, then you don't have representatives on the 
shura council.
    In some cases, there are a couple of tribal elders who have 
announced their intention to join the shura council, but noted 
that they need a little bit more time and a little bit more 
security before they can do it.
    So, again, if the incentives are there, they will join the 
shura council, and they will work with the district governor, 
because there is reason to do that.
    Mr. Murphy. Thank you.
    Mr. Taylor. General Petraeus, I am curious. Are there any 
parts of the nation of Afghanistan that are off-limits to 
congressional delegations?
    General Petraeus. That are off-limits?
    Mr. Taylor. Yes, sir.
    General Petraeus. Not that I am aware of, no, sir.
    Mr. Taylor. Okay, so if I wanted to go visit the 
Mississippi Guard, I am getting your permission in advance to 
go see them, no matter where they get sent?
    General Petraeus. Absolutely. Sir, with all the years of--
all the Army courses and classes you have spoken to, we will 
get you on a helicopter somewhere and get them out there. But, 
no, I mean, any place that our troopers are, certainly in the 
past we have put congressional delegations--you know, unless 
just the sheer logistics of it overwhelm the operation.
    Mr. Taylor. I liked your first answer better.
    Okay, Mr. Platts.
    General Petraeus. Please withdraw from the record my 
subsequent comments.
    Mr. Taylor. Thank you, sir.
    Mr. Platts.
    Mr. Platts. Thank you, Mr. Chairman. I will be brief, and 
apologize having to step out to be on the floor for a while, 
and so don't want to ask questions you have already answered.
    First, just want to convey my sincere thanks to each of you 
for your leadership, and especially, General Petraeus, you and 
all on your staff and our courageous men and women in uniform. 
It has been a couple months since my last trip to Afghanistan, 
and I come home every time inspired.
    And adding to the gentleman from Mississippi's comments, 
when we are given those opportunities to be out, truly out, you 
know, as far as possible, the insights we get are invaluable, 
as a policymaker back here, and then being able to take that 
message back to our constituents at home of the heroic work of 
these courageous men and women. So we appreciate your first 
answer, and when we are over there, helping to get us out there 
with our soldiers and Marines and others.
    General Petraeus. Congressman Taylor, if you run into some 
perhaps bureaucratic response that initially is not in line 
with--perhaps you can alert me to that, and we----
    Mr. Platts. I am sure the gentleman won't hesitate.
    General Petraeus. He never has in the past.
    Mr. Platts. The one question that you did highlight in your 
testimony before I had to leave--and just want to, I guess, 
emphasize the focus--and I know General Caldwell is doing great 
work, and the leadership--is the importance of that----
    General Petraeus. Right.
    Mr. Platts [continuing]. Short-, but especially long-term, 
for our long-term, you know, drawdown is that Afghan National 
Security Force effort. And I know we are in good hands with 
General Caldwell.
    And did I understand that the goal on ANA and ANP is that, 
by the end of this year, we are going to hit the training--I 
mean, the goals for up--you know, fully staffed out?
    General Petraeus. On the current glide slope that we are on 
now and have been on, really, now for about three months or so, 
so we are hesitant to declare this a sustainable trend, but it 
is certainly in the right direction, we are on track--we are 
actually slightly ahead of track to meet the goals by the end 
of fiscal year 2010.
    Mr. Platts. Okay.
    General Petraeus. And that then continues on out, of 
course, to the end of 2011.
    Mr. Platts. Right, so by 2011, you know, we are----
    General Petraeus [continuing]. 2011 is when we will have 
added the additional 100,000 that were authorized as part of 
the President's policy and that you funded----
    Mr. Platts. And we are on that track now, if I understood 
that correctly?
    General Petraeus. Right now. Again, there are many months 
to go, so----
    Mr. Platts. Yes.
    General Petraeus [continuing]. In the spirit of realism 
rather than----
    Mr. Platts. Right. Well, I appreciate that. And please 
convey my best to General Caldwell, and my interactions with 
him has--when I have been over there, as well as here before he 
was sent over, that that aspect of the mission is so important 
for our absolute success.
    General Petraeus. Absolutely.
    Mr. Platts. So, again, thanks for both of your leadership 
and service.
    I yield back.
    General Petraeus. Thank you, sir.
    The Chairman [presiding]. Thank you very much.
    We are getting near the witching hour. And we told you we 
would get you out of here. And I think we have three more 
folks, if we can squeeze them all in. If not, raise your hand.
    And right now, Ms. Giffords, you are under the wire.
    Ms. Giffords. Yes, thank you, Mr. Chairman.
    General Petraeus, welcome back to committee.
    And, Madam Secretary, thank you, as well.
    Hailing from southern Arizona, I am glad you are staying 
hydrated. It is very important, something that we know out in 
the desert. And on behalf of the men and women of Fort Huachuca 
and Davis-Monthan Air Force Base, we just want to thank both of 
you for your service.
    And, unfortunately, we lost two of our airmen, actually, 
associated with Davis-Monthan, Senior Airman Benjamin White, 
who was 24, and also Tech Sergeant Michael Paul Flores, 31, 
were both based at Davis-Monthan and were part of the Rescue 
Command. Very sad. Very much brings home, you know, what we are 
asking of our men and women.
    There has been a lot of attention back here in the United 
States on what is happening with the BP oil spill. And as we 
all know, the largest user of energy on the planet is actually 
the United States Air Force. And the DOD is the largest user of 
energy in the United States.
    And I really want to commend the work done on behalf of DOD 
and also what is happening in the field with our energy. But it 
is an area that I just really want to focus on, and I know a 
lot of questions have been asked, but during the last three 
years, supply lines have increasingly threatened--have been 
threatened either by enemy action or through international 
places.
    And in places like Kandahar, where we have a large 
presence, we have been plugged into a very unsustainable and 
really incapable grid system. We know that a major part of the 
upcoming Kandahar offensive will include some serious repairs 
and upgrades to the energy system, which will include small-
scale solar and hydropower systems, and also some solar-powered 
streetlights.
    I am just curious whether or not there are plans to utilize 
any of those same technologies at our bases around Afghanistan. 
And wouldn't that greatly reduce our need for fuel?
    General Petraeus. I pause, because there are a couple of 
different components to what we are trying to do with respect 
to energy reduction, if you will, and that is really what it is 
about. And there is, again, a fairly comprehensive effort in 
that regard.
    We don't have hydropower, obviously, access to that on the 
bases, but there has been a significant effort which has 
reduced very substantially, actually, what we have needed for 
the cooling and heating of our workplaces and living places. 
And that is sometimes as simple as pumping extra insulation 
into the roof and walls of these fairly rudimentary temporary 
buildings that we have, sometimes even the tents.
    And it is interesting, because we were exchanging e-mails 
today with an individual who is involved in that effort, and we 
believe there have been actually billions of dollars of savings 
in this effort, if you look at what we did in Iraq first in 
that regard, and have now been pursuing in Afghanistan.
    If I could, I might note that the supply lines actually 
have worked well--the lines of communication through Pakistan. 
Yes, there periodically are attacks, and there was one a week 
ago, but that followed a period of months and months, if not a 
year or so, since the last significant attacks. And it is much 
less than 1 percent of all of the cargo that goes in through 
Pakistan that is affected by these various attacks.
    And we are up now to some 70 percent of all supplies, not 
necessarily all materiel, but all supplies coming through the 
north through this carefully constructed northern distribution 
network that we have been able to establish over the course of 
the last year, in close partnership with U.S. Transportation 
Command and the State Department, that enables us to bring 
items through Russia, Kazakhstan, Uzbekistan, and into 
Afghanistan, and then even through some of the other countries, 
there are other routes, including one that comes out of Iraq 
through Turkey and then turns east.
    And we do use solar power in some cases, again, where that 
provides a benefit to us. We did that in Iraq, as well, by the 
way, I might point out, quite considerable use of that. And, 
again, that is the case in Afghanistan, as well.
    If I could add one final item, we are about to send you the 
new commander of Fort Huachuca, Brigadier General, promotable, 
Steve Fogarty, has been a stellar military intelligence chief 
at Central Command over the last two years, has time in 
Afghanistan, former special mission unit intel chief, and so 
forth, and I think you will really enjoy him and his wife, by 
the way, once they get out there.
    Ms. Giffords. And we are looking forward to it.
    The Chairman. We are going to have to cut you a few seconds 
short so Ms. Bordallo and Mr. Nye can ask questions here before 
our witnesses turn to pumpkins.
    Ms. Bordallo, go ahead.
    Ms. Bordallo. Thank you, Mr. Chairman.
    Secretary Flournoy and General Petraeus, I would like to 
thank you both for your exemplary service to our country.
    And to you, General, and all the commanders in Iraq and 
Afghanistan, I have always been very privileged to visit my 
servicemembers from Guam while I am there.
    I also fondly remember when I first met you. You were in 
charge in Mosul, and I knew then there was great expectations 
for you.
    General Petraeus. It was the all-woman delegation, as I 
recall.
    Ms. Bordallo. That is right. Unfortunately, I am sad to say 
that Guam lost another son in battle last week in Afghanistan, 
and we have lost far too many of our own in combat, either in 
Iraq or Afghanistan.
    Now, the mission in Afghanistan remains critical, I 
understand, and I appreciate the Obama Administration for 
focusing attention on the operations in Afghanistan.
    However, I do have some concerns about the impact the long 
war has had on our servicemembers. It can be for either one of 
you to answer, but I would like to know what we are doing to 
reach out to ensure that women play an important role in Afghan 
political and economic society.
    I just made another trip on Mother's Day with Speaker 
Pelosi and four members of this committee, all women, and we 
visited with the Afghan women, and we found they are very 
passionate to take on the work that they are created for. Some 
of them were midwives and educators and health officials. But 
they are so afraid of the security in their country that they 
are not being able to carry out these chores.
    So I am just wondering, are you working with the Afghan 
government to encourage them to promote women to take on 
leadership roles?
    Secretary Flournoy. There are a number of efforts ongoing, 
everything from encouraging adequate female representation in 
some of the more important shuras, the decision-making bodies, 
the jirgas, and so forth, but also paying particular attention 
to implementation of the part of the constitution that really 
speaks to women's rights and women's roles.
    So I think, on the military side, there has been a number 
of innovative steps taken to reach out to women. There is a new 
group of young women Marines that there have been some articles 
written about recently who are seeking to engage Afghan women 
much more fully as we go into new areas and districts. We have 
also done a lot in terms of reaching out on women's health 
issues.
    So I think it is sort of woven throughout different aspects 
of our strategy, from the highest levels of discussions with 
President Karzai down to what some of the innovative approaches 
that our small units are employing in the field.
    The Chairman. I hate to----
    Ms. Bordallo. I have one more question, Mr. Chairman.
    The Chairman. Very quickly. Very quickly. We are trying to 
squeeze Mr. Nye and Mr. Sestak in----
    Ms. Bordallo. This has to do with the suicide rate, 
General. I just received a memo concerning May suicide data 
from the Army. We lost 9 active-duty soldiers to potential 
suicide and 12 potential suicides among reserve component 
soldiers. What are we doing? Do we have outreach programs? And 
how successful are they?
    General Petraeus. We have enormous programs, downrange and 
back in the United States. The Vice Chief of Staff of the Army 
personally is seized with this in a host of different ways.
    And, in fact, I would perhaps suggest that you have--ask 
General Chiarelli and perhaps his counterparts from the other 
services to come over and lay all these programs out to you. 
They are very extensive.
    And we think we have had some successes with this, but some 
of the numbers seem to fly in the face of that at times. We 
think that we start to make progress, and then you see it 
again. We thought recently that we had begun to turn the 
corner, and then we have seen a number again recently.
    The Chairman. Thank you.
    Mr. Nye.
    And very quickly, Mr. Sestak.
    Quickly, Mr. Nye.
    Mr. Nye. Okay. General, thank you for your service. I had 
an opportunity to work with your MNF-I [Multi-National Force-
Iraq] team in 2007 out in Baghdad as a member of USAID.
    One quick question. I will be satisfied with a pretty brief 
answer on it. A lot of members have mentioned the importance of 
Pakistan and our ability to be successful in our mission in 
Afghanistan. Do you feel like our policy in Afghanistan has 
allowed the Pakistanis in their internal decision-making 
process to reach that tipping point where they are more likely 
to help us achieve our mission than be more concerned with 
their longer-term ties with Afghan Taliban and related groups?
    General Petraeus. I think--again, being absolutely 
forthright--that there are probably still calculations being 
made. This is why I have made the point that there needs to be 
a sustained substantial commitment. There needs to be a 
recognition that we are seized with this, that we are with them 
for the long term, that we will not do what we did to them, as 
I mentioned several times before, including after Charlie 
Wilson's war.
    There has been impressive positive action against some of 
the extremists, principally those that threaten the internal 
writ of governance of Pakistan. There have been some operations 
against others, as well, again, including Mullah Baradar and a 
number of others.
    There is a greater awareness, I think, again, that you 
can't allow extremists of any flavor to set up camp in your 
backyard. The problem has been one of capacity. And, again, we 
are working hard to enable that capacity and to be partners 
that they can count on, so if they go in and take care of some 
of these, that we are there for them, not doing the fighting--
that is being done by their forces--but to assist them as much 
as we possibly can.
    And the funding that was in the Kerry-Lugar-Berman bill, 
the coalition support funding, the Pakistani Counterinsurgency 
Capability Fund and others are essential to that effort.
    The Chairman. Mr. Sestak, quickly.
    Mr. Sestak. Thanks, Mr. Chairman.
    Just two quick questions. Madam Secretary, if al Qa'ida 
were not in Pakistan, would we be pursuing this strategy in 
Afghanistan and----
    Secretary Flournoy. It is hard for me to answer a 
hypothetical, but this President has been very clear that our 
vital interest in Afghanistan and Pakistan and in the region is 
disrupting, dismantling and defeating al Qa'ida and its 
affiliates, that there is a real threat to the United States 
and U.S. security from that region, and that is the principal 
reason why we are engaged.
    Mr. Sestak. So if----
    General Petraeus. Can I add to that, Congressman? Because 
the fact is that al Qa'ida is not the only transnational 
extremist organization that has its senior leadership in the 
Pakistan-Afghanistan border area. You also do have Tehrik-i-
Taliban Pakistani, which, of course, is the group to which the 
Times Square bomber was linked. You have Lashkar-e-Taiba, which 
carried out the Mumbai attack and has greater ambitions, as 
well. And, indeed, some other organizations, the Haqqani 
network has, again, transnational ambitions beyond its regional 
activities, which are already quite significant.
    Mr. Sestak. Thanks, General. And my second question, 
which--the reason I asked is, Madam Secretary, I thought that 
the President said, as you said, we are worried about al 
Qa'ida. These other ones are around, but as you expressed it, 
it is al Qa'ida. So my question had been, if they----
    Secretary Flournoy. Al Qa'ida and its affiliates----
    General Petraeus. And its affiliates, that is right.
    Secretary Flournoy [continuing]. That pose a threat to us.
    Mr. Sestak. So----
    General Petraeus. And these are the affiliates. And that is 
why I added on, if I could. I know you were about to do the 
same thing, sorry.
    Mr. Sestak. But back in the 1990s, the national security 
strategy of engagement always had an exit strategy. It was 
articulated, and they were specific benchmarks measuring 
success and failure for what your goal was. So if failure is 
more costly than success, you knew as warriors to exit to an 
alternative strategy.
    My question had to do with al Qa'ida, because they are not 
in Afghanistan. Do we have specific--and I have gone through 
your various reports--benchmarks for an exit strategy that 
actually measure quantifiably the ability to measure what is to 
be the removal of al Qa'ida, which is totally in Pakistan, and 
some of the other affiliates that, as you say, General----
    The Chairman. Can you give a brief answer?
    Secretary Flournoy. Brief answer is, we have provided 
fairly extensive reports that we will continue to update to 
Congress on metrics. But I think that the core idea here is 
that we want to reduce the capacity of al Qa'ida, its 
affiliates, which include many of the insurgents fighting 
against us, both us and our Pakistani partners--and while 
simultaneously increasing the indigenous capacity in 
Afghanistan and Pakistan to be able to deal with the threat 
that remains.
    Mr. Sestak. But I didn't see quantifiable metrics. Do you 
have those? I mean, I saw the----
    Secretary Flournoy. I think there are many of the metrics 
that are quantifiable, but perhaps we can have a further 
discussion on the metrics.
     Mr. Sestak. Thank you.
    The Chairman. I thank the gentleman, and I thank the 
witnesses very, very much. I realize you are pushing it for 
your next appointment. Thank you for your service.
    [Whereupon, at 4:15 p.m., the committee was adjourned.]


=======================================================================




                            A P P E N D I X

                             June 16, 2010
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             June 16, 2010

=======================================================================



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             June 16, 2010

=======================================================================

      


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

      
      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             June 16, 2010

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LOEBSACK

    Mr. Loebsack. Later this year, the Iowa National Guard will deploy 
approximately 2,800 Soldiers to Afghanistan. They will focus on 
training the Afghan National Security Forces and will also mobilize an 
Agribusiness Development Team, two missions which I believe are 
absolutely critical to the mission in Afghanistan. General Petraeus, 
can you please provide me with an update on the work of the ADTs in 
Afghanistan and how agriculture assistance is being coordinated with 
security operations and counternarcotics operations?
    Secretary Flournoy. Currently there are nine Agribusiness 
Development Teams (ADTs) operating in support of fourteen provinces in 
Afghanistan. The National Guard will continue to source nine teams 
through FY11 and four to nine teams in FY12. ADTs partner with the 
Provincial Reconstruction Teams (PRTs) and civilian agriculture 
development specialists from the U.S. Department of Agriculture (USDA) 
and the U.S. Agency for International Development (USAID). The 
interagency partners on the Agriculture Policy Working Group in Kabul 
are developing a plan, to be released by the end of 2010, that would 
ensure a seamless transition of ADTs to civilian experts as National 
Guard sourcing of ADTs decreases.
    Based on the needs of the individual province, ADTs work to build 
sustainable growth and capacity to the agriculture sector and 
agriculture governance through the Provincial Director of Agriculture 
Irrigation and Livestock (DAIL). ADTs typically begin with 
infrastructure projects, e.g., irrigation improvements, demonstration 
farms, processing facilities, and roads. Once the appropriate 
infrastructure is in place, ADTs train local farmers in more productive 
techniques, establish agriculture schools, and develop links to U.S. 
universities. Finally, ADTs build the capacity of the DAIL and the 
DAIL's staff to sustain growth and an environment for future 
agribusiness success.
    All development and capacity building efforts of the ADTs are 
coordinated with the other members of the U.S. Government Civilian 
Military Provincial Team. These include the PRT; the Brigade Task Force 
Commander; and the leads from the Department of State, USAID, USDA, and 
other international and non-governmental partners.
    Security issues are coordinated directly with the Brigade Task 
Force Commander for that Area of Operations. Counternarcotics (CN) 
efforts are the responsibility of the Afghan Provincial Government. Any 
coordination by U.S. forces, including ADTs, with CN efforts would be 
administered through the Brigade Task Force Commander and the PRT.
    Mr. Loebsack. I have been concerned since the President announced 
his strategy in December that we do not have a clear set of goals and 
metrics for dealing with the cross-border violence and insurgency in 
Pakistan. Given that the attempted Times Square bombing apparently has 
roots in Pakistan, this lack of a clear strategy is increasingly 
troublesome. Secretary Flournoy and General Petraeus, can you please 
explain to me how we are addressing the threats emanating from Pakistan 
and how our strategy for Pakistan is being coordinated with the mission 
in Afghanistan?
    Secretary Flournoy. In March 2009, the President presented the U.S. 
Strategy for Afghanistan and Pakistan, which was based on a policy 
review that he requested upon taking office. The goal of the strategy 
is to disrupt, defeat, and dismantle Al-Qaeda in Afghanistan and 
Pakistan and to prevent their return to either country. The strategy 
initiates a regional approach by linking Afghanistan and Pakistan in a 
common fight against violent extremists.
    The National Security Council Strategic Implementation Plan (SIP) 
was released in July 2009 and provides a series of supporting 
objectives for implementing the U.S. Strategy for Afghanistan and 
Pakistan. The plan also includes measures of effectiveness to track 
progress in achieving the objectives. The SIP ``metrics'' are one of 
several means we use to evaluate progress, and they are an excellent 
example of precise, quantifiable information requirements that are 
continually collected and evaluated by our military and civilians in 
the field.
    Coordinating our efforts in Pakistan with those in Afghanistan is a 
challenge, but it is one in which we have effective offices and systems 
in place. The Special Representative to Afghanistan and Pakistan has 
formed an effective partnership with the Commander of United States 
Central Command. These two organizations serve as the primary hub 
through which information travels up, down, and across the interagency.
    Additionally, commanders at the battalion, brigade and task force 
level from the International Security Assistance Force (ISAF), 
Afghanistan National Army (ANA) and the Pakistan military (PAKMIL) are 
in frequent contact. These leaders hold regular border coordination 
meetings to ensure that cross-border activities are transparent, and 
that both Afghanistan and Pakistan continue to develop their own 
information sharing. ISAF, ANA and the PAKMIL also use these meetings 
to coordinate their operations with friendly forces on the opposite 
side of the Afghanistan-Pakistan border.
    Mr. Loebsack. Later this year, the Iowa National Guard will deploy 
approximately 2,800 Soldiers to Afghanistan. They will focus on 
training the Afghan National Security Forces and will also mobilize an 
Agribusiness Development Team, two missions which I believe are 
absolutely critical to the mission in Afghanistan. General Petraeus, 
can you please provide me with an update on the work of the ADTs in 
Afghanistan and how agriculture assistance is being coordinated with 
security operations and counternarcotics operations?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
    Mr. Loebsack. I have been concerned since the President announced 
his strategy in December that we do not have a clear set of goals and 
metrics for dealing with the cross-border violence and insurgency in 
Pakistan. Given that the attempted Times Square bombing apparently has 
roots in Pakistan, this lack of a clear strategy is increasingly 
troublesome. Secretary Flournoy and General Petraeus, can you please 
explain to me how we are addressing the threats emanating from Pakistan 
and how our strategy for Pakistan is being coordinated with the mission 
in Afghanistan?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. I know that DOD employs hundreds of canines in Iraq and 
Afghanistan. How many of those canines are owned and operated by 
contractors?
    Secretary Flournoy. A total of 595 contractor-owned dogs are used 
to support the military forces in Iraq and Afghanistan: 479 such dogs 
are used in Iraq and 116 in Afghanistan. The number of dogs in 
Afghanistan will grow to 324 over the next three months to meet 
requirements to support Forward Operating Base (FOB) force protection 
missions.
    Mr. Rogers. Does the Department have a set of minimum standards 
that contractors are required to meet in order to field an individual 
canine? If so, what are they?
    Secretary Flournoy. All contracted canines meet military 
certification standards prior to deploying to theater. Army Regulation 
190-12 and USCENTCOM Military/Contract Working Dog Policy outline the 
specific requirements each contracted canine must attain prior to 
entering the Area of Responsibility (AOR). During the course of their 
deployments, all contracted working dogs are certified by a military 
certification authority and monitored and validated by the Military 
Working Dog program manager.
    Mr. Rogers. I know that DOD employs hundreds of canines in Iraq and 
Afghanistan. How many of those canines are owned and operated by 
contractors?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
    Mr. Rogers. Does the Department have a set of minimum standards 
that contractors are required to meet in order to field an individual 
canine? If so, what are they?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. KISSELL
    Mr. Kissell. In response to a question from Congressman Kissell, 
General Petraeus mentioned a program he submitted for approval to 
address the electricity needs of Kandahar. The program will use 
Commander's Emergency Response Program funds to provide electricity. 
Please provide details of the program, the benefits, and the projected 
cost.
    General Petraeus. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. HEINRICH
    Mr. Heinrich. Roadway Security: With respect to freedom of 
movement, what is the status of security on the main highways in 
Afghanistan? Specifically, what threat do IED's and small arms pose to 
`goods & services' movement? Furthermore, are these movements plagued 
or subjected to extortion, by Afghan National Police, Taliban or other 
extremist groups? If so, what is being done to prevent it in the 
future?
    Secretary Flournoy. Roadway security continues to be a major 
problem in Afghanistan. Violence is the primary impediment to freedom 
of movement, with 69 percent of attacks since January 2008 occurring 
within one kilometer of roadways. The majority of attacks continue to 
occur in the southeastern part of the country.
    The International Security Assistance Force (ISAF) has limited 
information on details of illegal or compromised checkpoints along 
major roads; however, polling data suggests that illegal checkpoints 
remain a concern for the population. Reports that food prices at the 
local markets have increased beyond the normal seasonal fluctuations 
indicate that farmers may be experiencing greater difficulty or risk in 
bringing their products to market.
    The ISAF Campaign Plan is intended to secure major population 
centers in order to create a safe environment for governance and 
development efforts, and to improve the freedom of movement for the 
Afghan population. Ongoing and future operations are expanding the 
security zones around population centers and increasing freedom of 
movement and commerce. Recent operations in Kandahar, for example, are 
improving the security along Highway 1 for the Afghan people.
    ISAF continues to increase the size, operational capability, and 
professionalism of the Afghanistan National Security Forces (ANSF). As 
part of the growth and development of the ANSF, ANSF personnel are 
trained on the conduct of checkpoint operations.
    Mr. Heinrich. Mineral Discovery: A recent New York Times article 
highlighted the nearly $1T in untapped mineral deposits located within 
the borders of Afghanistan. This discovery stands to be a tremendous 
asset to the Afghan people. How do we leverage this discovery and 
ensure that Afghanistan and its people reap the benefits?
    Secretary Flournoy. Increasing capacity within the Government of 
Afghanistan's ministries is key to facilitating more effective and 
transparent management of the country's mining resources, which, in 
turn, will encourage domestic and foreign investment in Afghanistan's 
mineral industry. The U.S. Government assists these efforts through 
interagency engagements involving, among other agencies and offices, 
the U.S. Agency for International Development (USAID), the U.S. 
Geological Survey (USGS), and the U.S. Department of Defense's Task 
Force Business Stability Operations (TFBSO).
    Mr. Heinrich. Local Governance: One of the strategic linchpins of 
the Afghanistan campaign is the bolstering of local governance. On June 
15, 2010, a governor from a southern district in Afghanistan was 
assassinated. According to Ben Rowswell, Chief of the Canadian-led 
provincial reconstruction team, ``I don't think it's a coincidence that 
there have been attacks on government officials . . . That's what you 
would expect from an insurgency that feels threatened by efforts to 
connect the people to their government.'' What are we doing to ensure 
the safety and security of Afghanistan's government officials?
    Secretary Flournoy. One objective of the International Security 
Assistance Force (ISAF) Campaign Plan is to secure and link 
Afghanistan's major population centers to create a safe environment for 
governance and development efforts. Ongoing and future operations are 
increasing the physical security and freedom of movement for Afghan 
Government officials. In rural areas, the Afghan Local Police/Village 
Stability Operations programs will bring greater security for Afghan 
officials where Afghanistan National Security Forces (ANSF) and 
Coalition forces have little or no presence. The increased security for 
Afghan officials will allow the Afghan Government to expand its reach 
and improve its ability to deliver basic services to the Afghan people.
    Mr. Heinrich. Roadway Security: With respect to freedom of 
movement, what is the status of security on the main highways in 
Afghanistan? Specifically, what threat do IED's and small arms pose to 
`goods & services' movement? Furthermore,

are these movements plagued or subjected to extortion, by Afghan 
National Police, Taliban or other extremist groups? If so, what is 
being done to prevent it in the future?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
    Mr. Heinrich. Mineral Discovery: A recent New York Times article 
highlighted the nearly $1T in untapped mineral deposits located within 
the borders of Afghanistan. This discovery stands to be a tremendous 
asset to the Afghan people. How do we leverage this discovery and 
ensure that Afghanistan and its people reap the benefits?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
    Mr. Heinrich. Local Governance: One of the strategic linchpins of 
the Afghanistan campaign is the bolstering of local governance. On June 
15, 2010, a governor from a southern district in Afghanistan was 
assassinated. According to Ben Rowswell, Chief of the Canadian-led 
provincial reconstruction team, ``I don't think it's a coincidence that 
there have been attacks on government officials . . . That's what you 
would expect from an insurgency that feels threatened by efforts to 
connect the people to their government.'' What are we doing to ensure 
the safety and security of Afghanistan's government officials?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. OWENS
    Mr. Owens. With the understanding that Afghanistan's mineral 
deposits are unlikely to affect American operations in Afghanistan in 
the short-term, is there a plan in place to help Afghanistan use these 
resources to grow and promote economic stability in the long term? In 
addition, is it reasonable to assume that these resources could be 
tapped to assist post-war reconstruction efforts and facilitate 
stronger economic ties with other nations?
    General Petraeus. [The information referred to was not available at 
the time of printing.]
                                 ______
                                 
                    QUESTIONS SUBMITTED BY MR. CRITZ
    Mr. Critz. It is my understanding that the Government of 
Afghanistan is taking in approximately $1.3 billion in revenue each 
year, mainly from customs duties. The rest of their budget, including 
standing up the Afghan National Security Forces, comes from the United 
States and coalition partners' aid. What are we doing to build greater 
revenue-intake capacity for the Afghan government to get them on track 
to paying more of their own budget commitments?
    Secretary Flournoy. Economic development is generally the role of 
the U.S. Agency for International Development (USAID). Within the 
Department of Defense (DoD), efforts are underway to assist with 
customs and mining revenue.
    The International Security Assistance Force (ISAF) is working with 
the Afghan Government to increase customs revenue at its borders. 
Security at the borders is increasing as Afghanistan National Security 
Forces' (ANSF) capabilities improve. Over the past few months, longer 
operating hours have facilitated a greater intake of cargo into 
Afghanistan and have yielded greater revenue.
    There are over 20 agencies within the Afghan Government working on 
border control and management. To coordinate efforts across these many 
organizations and improve unity of effort, the ISAF Borders Issues 
Working Group is helping the Afghan Government develop a comprehensive 
border policy.
    Mining may be one long-term solution to increase revenue. The DoD 
Task Force on Business and Stability Operations (TFBSO) estimates that 
up to $1 trillion (U.S.) in mineral reserves exist in Afghanistan. 
Interagency working groups are investigating this option as a viable 
source of revenue for Afghanistan.
    Mr. Critz. It is my understanding that the Government of 
Afghanistan is taking in approximately $1.3 billion in revenue each 
year, mainly from customs duties. The rest of their budget, including 
standing up the Afghan National Security Forces, comes from the United 
States and coalition partners' aid. What are we doing to

build greater revenue-intake capacity for the Afghan government to get 
them on track to paying more of their own budget commitments?
    General Petraeus. [The information referred to was not available at 
the time of printing.]

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
